U.S. Department of Justice
Office of the Inspector General




                A Review of the

           U.S. Marshals Service’s

         Use of Appropriated Funds to 

         Purchase Promotional Items





                                  Office of the Inspector General
                                  Oversight and Review Division
                                                  November 2013
                                      Table of Contents


Executive Summary ................................................................................... ii


I.      Introduction ...................................................................................... 1


II.     Methodology of the Investigation ....................................................... 1


III.    Applicable Statutes and Regulations ................................................. 2

        A.	     31 U.S.C. § 1301 and the Necessary Expense Doctrine ............ 2

        B.	     Gifts ........................................................................................ 4

        C.	     Awards .................................................................................... 6

        D.	     Official Reception and Representation Expenses ...................... 7


IV.	    Background Regarding the U.S. Marshals Service ............................. 9

        A.	     The Investigative Operations Division....................................... 9

        B.	     The USMS Procurement Process ............................................ 11


V.	     Factual Findings ............................................................................. 12

        A.	     IOD’s Purchases of Promotional Items, 2005-2010 ................. 12

                1.	      Financial Analysis of IOD Promotional Items

                         Purchases between 2005-2010 ..................................... 12

                2.	      Witness Accounts Regarding IOD Purchases and

                         Uses of Promotional items ............................................ 17

        B.	     Selected IOD Purchases of Promotional Items ........................ 18

                1.	      Challenge Coins ........................................................... 18

                2.	      Christmas Ornaments .................................................. 21

                3.	      Neckties and Silk Scarves ............................................. 22

                4.	      Retirement Awards ....................................................... 23

        C.      The New York/New Jersey Regional Fugitive Task Force ........ 24

        D.      Actions Taken After the Complaint......................................... 31

                1.	      JMD Seminars ............................................................. 31

                2.	      Suspension of USMS Promotional Items Purchases ...... 33

                3.	      The Department’s Issuance of Policies and Guidance 

                         Regarding the Purchase of Promotional Items ............... 33

                4.	      USMS Policy Directive 1.2 ............................................ 35


VI.	    Analysis and Recommendations ...................................................... 37



                                                      i
                       EXECUTIVE SUMMARY
      The Department of Justice Office of the Inspector General (OIG)
conducted a review of purchases of promotional items, also known as
“swag,” by the Investigative Operations Division (IOD) of the United States
Marshals Service (USMS). This review was initiated in response to an
anonymous letter to the OIG alleging that senior managers in IOD had spent
excess end of year funding on promotional items including, among other
things, silk ties, pillows, and various items bearing the USMS name and
seal.

       We found that the IOD spent at least $793,118 on promotional items
during fiscal years 2005 to 2010 and that these expenditures were excessive
and, in some instances, in contravention of Department Policies and
Government Accountability Office (GAO) decisions and guidance.
Furthermore, IOD’s spending on promotional items increased by 975
percent during the 6-year period examined by the OIG and vastly outpaced
the growth of the USMS’s appropriation during the same period. As an
illustration of some of the IOD’s spending, we found that in six years the
IOD branches spent $155,081 on USMS challenge coins, $11,338 on
neckties and silk scarves bearing the USMS seal, $13,605 on USMS-themed
Christmas ornaments, $16,084 on USMS-themed blankets and throws, and
$36,596 on USMS lapel pins.

       We found that the growth in spending on promotional items was the
result of the absence of internal controls and accountability within the
USMS, and the failure of USMS personnel who were given purchasing
responsibilities to exercise good judgment. Furthermore, the spending on
some promotional items was not allowable under Department regulations or
GAO guidance, in that certain promotional items purchased by the IOD
could not be considered “necessary expenses” for the USMS to fulfill its
congressionally mandated missions.

       In examining promotional items that were used as gifts to publicize
the USMS, we found that some items, such as the Sex Offender
Investigation Branch’s (SOIB) challenge coins, arguably served an
authorized purpose by reminding the recipient that the SOIB was available
to assist local law enforcement agencies with unregistered sex offenders.
However, the coins did not provide the recipient with specific information
about the SOIB or its activities, apart from its name, and therefore might
not be considered a necessary expense. We found that other promotional
items, such as silk scarves, were purchased using appropriated funds and
distributed for the purpose of promoting goodwill. Under applicable
statutes and policies, these items should have been purchased using

                                     ii
Representation and Reception funds (R & R funds), which, under USMS
guidelines, were subject to strict controls and documentation and an annual
budgetary cap determined by Congress. Had the USMS applied these
“goodwill” purchases to the R & R fund, it would have exceeded Congress’s
legislated cap.

       Witnesses told us that they used promotional items such as challenge
coins to reciprocate the receipt of similar gifts from law enforcement officials
in other agencies who worked with USMS. The GAO has stated that gifts
which are intended to promote reciprocal respect, goodwill, and cooperation
between a federal agency and its state or local level counterparts are not
necessary expenses. A 1993 USMS memorandum stated that the practice of
exchanging promotional items “may be justified as essential to the [USMS’s]
mission since the practice of exchanging these items is so widespread and
the lack of reciprocity would have an impact on mission success.” Several
witnesses with whom we spoke expressed similar justifications for this
practice. We are skeptical of the justifications provided to us and found
that eliminating the practice of funding the routine exchange of promotional
items would not likely undermine the USMS’s ability to obtain or retain
other law enforcement agencies’ cooperation.

       We found that promotional items also were distributed as informal
awards to both USMS employees and task force officers assigned to Regional
Fugitive Task Forces by their local agencies, given out as gifts by USMS
managers to build morale, and disseminated as retirement and ceremonial
gifts. While using the promotional items as informal awards did not clearly
violate USMS policies in place during the period of time that we examined,
we found that distributing promotional items, such as Christmas
ornaments, as gifts to build morale was an unnecessary expense and that
appropriated funds should not have been used to purchase such items. In
regard to retirement and ceremonial gifts, we found that while the
cumulative budgetary impact of these purchases was small, there were
instances of excessive spending, such as the purchase of $149 lamb wool
blankets and custom boxes with USMS seal and $125 crystal statues.

       On January 21, 2011, the Attorney General issued a directive to all
Department components to reduce expenditures to only mission-essential
programs, projects and activities. In a June 17, 2011, e-mail sent to all
USMS management, in which he referenced Attorney General Holder’s
directive, USMS Chief Financial Officer Albert Hemphill stated that USMS
was developing a promotional items policy and that “all expenditures for
[promotional items]…[were] suspended pending issuance of a formal policy.”
The Department and the USMS subsequently issued policies that provide
explicit guidance on the purchase and use of promotional items in the
future.


                                       iii
       We found that the new policies will encourage restraint and enhance
accountability with respect to the purchase of these types of items.
However, we also found that the USMS policy contains flaws that the USMS
should rectify. For instance, the USMS Policy authorizes gifts of
promotional items to employees and others for “contribution or services to
the USMS,” and for “participation/performance” at USMS conferences or
training events, which is a broader standard than allowed by Department
and GAO guidance. The USMS Policy also authorizes the purchase of items
for the express purpose of reciprocating similar gifts from other agencies
“and to foster and maintain cooperation and goodwill,” which is also
contrary to Department and GAO guidance.

       We are recommending (1) that the USMS revise its promotional items
policy for the purpose of making it consistent with the Department’s
policies, (2) that the USMS should enhance its new internal controls for
monitoring the purchase and use of promotional items to ensure compliance
with its own and Department policies, and (3) that the USMS should direct
the IOD and its branches to conduct a full inventory of promotional items
currently on hand.




                                    iv
 I.        Introduction

       In October 2010, an anonymous author sent a letter to the
Department of Justice Office of the Inspector General (OIG) alleging, among
other things, that senior managers in the United States Marshals Service
(USMS) were spending “excess end of year funding on ‘swag.’” 1 The writer
specifically alleged that senior managers in the USMS’s Investigative
Operations Division (IOD) had authorized the purchase of approximately
400-500 silk ties with the USMS seal and star outlined within the pattern,
approximately 200 hand embroidered pillows, and costly retirement gifts for
senior managers.

     Based upon the allegations made in the anonymous letter, the OIG
examined the purchasing of promotional items by all of the IOD branches. 2

      This report is divided into six sections, including this introduction.
Section II provides an overview of the methodology we used to investigate
the anonymous writer’s claims. Section III examines applicable statutes
and regulations. Section IV provides some background information about
the USMS and Section V contains our factual findings. In Section VI we
describe our overall conclusions regarding the IOD’s spending of
appropriated funds on promotional items and provide recommendations to
the USMS to help it avoid repeating such activity in the future.

      Appendix A contains the USMS’s response to our report. Appendices
B through E contain material described in the body of our report.


II.        Methodology of the Investigation

       To investigate the issues raised in the October 2010 anonymous
letter, the OIG conducted 30 interviews of individuals currently or formerly
employed by the USMS or the Department’s Justice Management Division
(JMD). We also received and reviewed more than 127,000 documents.
These documents included e-mails from the accounts of current and former
USMS personnel, requisition requests and corresponding invoices for
       1 The anonymous letter was also sent to the Acting Comptroller General of the

United States, the Department of Justice’s Office of Management and Budget, the Acting
Deputy Attorney General, and the Assistant Attorney General for Administration.
       2  “Swag” is a slang term for promotional items that are often marked with a
particular organization’s name or logo and may be given away. Some sources claim that
swag is an acronym for “Stuff We All Get” or “Souvenirs, Wearables, And Gifts.” In this
report we use the term “promotional items” interchangeably with “swag.” Examples of
promotional items include clothing, coffee mugs, and the like. Another term sometimes
used for items of this type is “trinkets.”


                                            1

promotional items purchased between 2005 and 2010, procurement
training materials provided to the USMS by JMD during procurement
training seminars, USMS guidance, and the current Department and USMS
policies covering promotional items, which did not exist during the period of
time examined in this report. 3 We also reviewed relevant information in the
Government Accountability Office’s (GAO) “Redbook,” (GAO Red book) which
is a multi-volume treatise containing GAO decisions and opinions, judicial
decisions, statutory provisions, and other materials concerning federal
procurement law. 4


III.       Applicable Statutes and Regulations

       A.      31 U.S.C. § 1301 and the Necessary Expense Doctrine

      Pursuant to the United States Constitution, federal agencies may only
spend money if Congress has given them the explicit authority to do so
through an appropriation. U.S. Const. art I, § 9. An appropriation is
defined as:

       An authorization by an act of the Congress that permits Federal
       agencies to incur obligations and to make payments out of the
       Treasury for specified purposes. An appropriation usually
       follows enactment of authorizing legislation . . . .
       Appropriations do not represent cash actually set aside in the
       Treasury for purposes specified in the appropriation act; they
       represent limitations of amounts which agencies may obligate
       during the time period specified in the respective appropriations
       acts.” 5
       3 JMD, through its Office of General Counsel, provides advice and assistance to
senior Department and Department component officials relating to Department policies for
budget and financial management, procurement and other matters relating to organization,
management and administration. It is also responsible for providing legal advice regarding,
among other things, appropriations, budget and financial management, and procurement.
JMD provides this guidance and legal advice to the Department and its components
through training seminars, which are provided at a component’s request, and through
“Financial Management Policies and Procedures Bulletins.”
       4  GAO is an independent nonpartisan agency that works for Congress and
investigates how the federal government spends taxpayer dollars. Its Office of General
Counsel issues legal decisions, opinions, and reports on appropriations law and other
matters. GAO opinions and legal decisions are not binding on Executive Branch
departments, such as the Department, or Department components, such as the USMS,
because it is an agency of Congress. However, GAO decisions and opinions provide
guidance to the Department and its components regarding procurement matters and the
advice given by JMD to Department agencies.
       5Andrus v. Sierra Club, 442 U.S. 347, 359 n.18 (1979), See also 31 U.S.C. §§ 701(2)
and 1101(2).


                                            2

       Chapter 13 of Title 31 of the United States Code governs
appropriations. Section 1301 of Title 31 states that appropriations may
only be spent on the objects for which they were legislated by Congress.
However, Section 1301 does not require that permissible expenditures be
specified in the act setting forth an agency’s appropriation. 6 Consequently,
the spending agency has reasonable discretion in determining how to use its
appropriation. 7

      GAO and the courts have consistently interpreted Section 1301 to
permit an appropriation to be used to pay any expense that is necessary or
incident to the achievement of the agency’s underlying objectives. This is
known as the “necessary expense doctrine.” 8 Thus, where an agency
believes that the expenditure bears a logical relationship to the objectives of
the appropriation and will make a direct contribution to the agency’s
mission, the appropriation may be used for such purpose. 9

       Necessary expense determinations “are evaluated in light of the
specific circumstances and statutory authorities,” but the necessary
expense test is sometimes articulated as a three-part rule:

           1.	   The expenditure must bear a logical relationship to the
                 appropriation sought to be charged. In other words, it must
                 make a direct contribution to carrying out either a specific
                 appropriation or an authorized agency function for which more
                 general appropriations are available;
           2.	   The expenditure must not be prohibited by law; and
           3.	   The expenditure must not be otherwise provided for, that is, it
                 must not be an item that falls within the scope of some other
                 appropriation or statutory funding scheme. 10
      In a 1986 legal opinion, the Department’s Office of Legal Counsel
(OLC) pronounced that a Department component may spend money as long

      6 31 U.S.C. § 1301(a), see also U.S. General Accounting Office, Office of the General

Counsel, Principles of Federal Appropriations Law, 4-20 (3d ed. 2004) (GAO Red Book).
       7    GAO Red Book at 4-20.
       8    GAO Red Book at 4-21.

       9 See Lincoln v. Vigil, 508 U.S. 182, 192 (1993), Int’l Union, United Auto., Aerospace 


v. Donovan, 746 F.2d 855, 861 (D.C. Cir. 1984), Matter of Prize Drawing by Gen. Serv.
Admin. Pub. Bldgs. Serv., B-242391, 70 Comp. Gen. 720, Sep. 27, 1991 (Cash prizes for
providing information relating to an agency’s mission is a necessary expense under 31
U.S.C. § 1301(a)), Matter of Certification of Voucher for Materials Used in Savings Bond
Campaign, B-225006, June 1, 1987, (Lump-sum appropriation may be used to fund limited
amounts of promotional materials for savings bond campaign administratively determined
to be necessary).
       10   GAO Red Book at 4-21.


                                              3

as it is not prohibited from doing so and the purchased items are reasonably
within the component’s purpose. The OLC opinion is consistent with GAO
guidance, which states that expenditures are illegal in the absence of either
statutory authority or an adequate justification under the necessary
expense doctrine. 11

       B.      Gifts

       As detailed below, some of the promotional items purchased by the
USMS were given away as gifts. As a general rule, appropriated funds may
not be used to purchase personal gifts for government employees or the
public. 12 However, an agency may want to use appropriated funds for gifts
to attract attention to the agency or agency programs. Under the necessary
expense doctrine, described above, an agency may purchase items in the
nature of gifts or souvenirs only if there is a direct link between the items
and the agency’s purpose for which Congress has appropriated funding. 13

      Although GAO opinions are not binding on the Department, we found
several GAO decisions that provide useful guidance for analyzing the issues
raised by the USMS’s purchases of promotional items. In one case, the GAO
examined expenditures by a Veterans Administration medical center on a
variety of novelty items, such as holiday rope pens, folding scissors, and
shoe laces imprinted with the medical center’s logo or slogan, to distribute
in support of its recruiting efforts. The GAO held that gifts such as these,
which act only as “favorable reminders” and do not provide recipients with
essential information about the agency, are not “necessary expenses” under
the doctrine. 14 In another GAO decision, the Director of the Department of
the Army sought to procure marble paperweights and walnut plaques for
the purpose of giving them to “appropriate governmental officials and other
individuals in recognition of their support for the United States Army
Criminal Investigation Command.” As a justification for the expense, the
Army Director stated that “mission essential cooperation [from other law
enforcement agencies was] maintained through the vehicle of reciprocal
respect” and that these items acted as that vehicle. The GAO disagreed,
holding that gifts which are intended to promote reciprocal respect,




       11   GAO Red Book at 4-26.
       12   GAO Red Book at 4-155.
       13 Matter of Expenditures of the Department of Veterans Affairs for the Oklahoma

State Fair, B-247563.2 at 3, May 12, 1993.
       14 Matter of Expenditures by the Dept. of Veterans Affairs Medical Center, Oklahoma

City, OK, B-247563.3, April 5, 1996, at 2, 4.


                                             4

goodwill, and cooperation between a federal agency and its state or local
level counterparts are not necessary expenses. 15

       In 1993, the USMS Office of General Counsel transmitted a
memorandum to the Office of Policy and Communications (the OGC
memorandum) for the purpose of providing advice concerning the purchase
of promotional items. 16 The OGC memorandum addressed the subject of
gifts to non-USMS personnel:

      “Gifts” to non-USMS Persons

      A. Items of nominal cost that have no intrinsic value or
         function other than publicizing the agency may be given to
         non-USMS personnel. Allowable items are buttons, patches,
         lapel pins, sticker badges, pens and pencils.
      B. Gifts to non-federal personnel other than the items noted [in
         A] above may be made by the Director from the reception
         and representation fund. 17
      C. Gifts to non-federal government persons may be made where
         essential to the mission of the agency. Allowable items are
         caps, T-shirts, (inexpensive) cuff links, (inexpensive)
         paperweights, mugs and items in [A] above. (Emphasis in
         original).

With respect to the last category, the memorandum stated that gifts to non-
federal officials “may be justified as essential to the mission since the
practice of exchanging these items is so widespread and the lack of
reciprocity would have an impact on mission success,” but it cautioned that
“this justification is extremely restricted and should not be used to support
large purchases.” The memorandum stated that higher cost items should
be carefully scrutinized and are generally not permitted. It also
recommended that the requesting office for such purchases document the
use of any promotional items at the time of purchase or distribution.

      In our review of e-mails from the period covered by this report and
witness interviews, we found no evidence that the OGC memorandum was
broadly disseminated within USMS, and we found no indication that it was

      15  Matter of use of U.S. Army Criminal Investigation Command (USACIDC)
Appropriated Funds for Purchase of Marble paperweights and Walnut Plaques, B-184306, 55
Comp. Gen. 346, October 2, 1975.
      16  The 1993 USMS OGC Memo to the Office of Policy and Communications is
attached as Appendix B to this report.
      17   The Reception and Representation Fund is addressed below in Section III(D).


                                             5

consulted in connection with the purchases of promotional items described
in this report.

          C.       Awards

      Some of the promotional items at issue in this investigation were
purportedly used to reward USMS employees or others for a job well done.
Unlike the case with gifts, there is explicit authority for certain employee
awards. The Federal Employees Incentive Awards Act (FEIA) allows federal
agencies to provide incentive awards to employees for superior
accomplishments and cost saving disclosures. 18 Federal regulations under
the FEIA define an award as “something bestowed or an action taken to
recognize and reward individual or team achievements that contribute to
meeting organizational goals or improving the efficiency, effectiveness, and
economy of the government or is otherwise in the public interest.” 19 The
FEIA does not limit the nature of the awards and authorizes the use of
merchandise awards, such as coffee mugs.

       In another GAO opinion offering guidance relevant to this report, the
Naval Sea Systems Command proposed purchasing “desk type medallions”
for the purpose of awarding them to its civilian and military personnel in
recognition of their “significant accomplishments.” 20 The GAO concluded
that pursuant to the Department of Defense’s award policy the Navy had
issued appropriate guidelines for the distribution of honorary awards, which
justified the purchase of the “desk type medallions.” The GAO concluded
that in light of the FEIA and other authorities, the Naval Sea Systems
Command had the authority to purchase the items and award them to its
employees.

       On December 14, 1978, the Department of Justice issued its own
policy on employee awards. The Department’s policy states that each DOJ
Component may create its own award program and that component heads,
such as the Director of the USMS, must ensure that there is documentation
supporting any awards and that funds are available for their distribution. 21
Awards may be given to Department employees and honorary awards may
be given to non-Department employees who perform a service for the



          18   5 U.S.C. §§ 4501-4509.

          19   5 C.F.R. § 451.102.

      20 Matter of Awarding Desk Medallion by Naval Sea Systems Command, B-184306,


August 27, 1980.
          21   DOJ 1451.1A, Dept. of Justice, Office of Mgmt & Fin., Incentive Awards Program,
(1978).


                                                6

Department. Additionally, awards may only be given from supervisors to
employees. 22

      The USMS OGC memorandum issued in 1993 (discussed above with
respect to gifts) also addressed employee awards. It stated:

      Awards to Employees
      USMS management is authorized to purchase traditional
      awards (plaques, medallions in lucite, etc.) as well as emblems,
      picture frames, clocks, coffee mugs, desk sets, T-shirts,
      paperweights, vinyl tablet portfolios, or similar items that meet
      the agency’s recognition needs, to present to employees as bona
      fide awards for their performance. (Performance is distinct from
      mere participation, for which no authority exists to make
      awards) (Emphasis in original).
Again, the OGC memorandum stated that “[h]igher cost items should be
carefully scrutinized and [are] generally not permitted.”

       The USMS also addressed awards in USMS Policy Directive 3.3
(September 27, 2007). It states that the USMS awards program was
established to “recognize employees who, individually or through a team
effort, contribute to meeting USMS-, DOJ- and/or government-wide goals.”
The policy states further that “there should be a direct relationship between
organizational goal attainment and performance recognition.” The types of
awards contemplated in the policy include cash payments, paid leave,
quality step increases, and a specific “Director’s Honorary Award,” which
can be cash or “honorary without cash.” The policy has no provision for
rewarding its employees with merchandise awards or for awarding non-
USMS individuals, such as Task Force Officers.

      D.       Official Reception and Representation Expenses

      As detailed below, many witnesses told us that promotional items
were sometimes given out to members of other law enforcement agencies or
the public to promote goodwill toward the USMS. Congress has
appropriated moneys to agencies, known as “official reception and
representation funds” (R & R funds), that allow agencies to pay for
entertainment and similar expenses to promote goodwill. 23 Congress
defined “official reception and representation expenses” for DOJ as “official
expenses of a social nature intended in whole or in predominant part to
promote goodwill toward the Department or its missions, . . . in accordance

      22   Id., see also Pol. & Proc. Bull. No. 11-04 (August 12, 2011).
      23   GAO Red Book at 4-136.


                                              7

with distributions and procedures established, and rules issued, by the
Attorney General.” 24

       Reception and representation expenditures must be in compliance
with DOJ Order 2110.31B (March 22, 2002). The Order states that R & R
funds “are authorized for expenses incurred by the Department . . . for
officials whose positions entail responsibilities for establishing and
maintaining relationships of value to the Department . . . .” It states further
that R & R expenditures are authorized for the purpose of:

        1.	     Extending courtesies to representatives of foreign countries.
        2.	     Funding official activities that further the Department’s
                interests.
        3.	     Hosting events and providing mementos to state and local
                officials and community leaders, in furtherance of the
                Department’s interests. (Emphasis added).

       DOJ Order 2110.31B also states that each component of the
Department “should establish procedures to separately record and classify
expenditures” of R & R funds. Furthermore, the Order directs each
component to “establish control procedures to assure that the monetary
limitation set by statute or the Attorney General is not exceeded.” Id.

      In 2009, the USMS issued written “Reception and Representation
Guidelines.” According to a Special Assistant in the USMS Director’s Office,
the guidelines were only provided to USMS employees who were requesting
to expend R & R funds and were not disseminated throughout the agency. 25
These guidelines define reception and representation as “official agency
events, typically characterized by mixed ceremonial, social and/or business
purpose relating to the function of the agency, and hosted in a formal sense
by high level agency officials.” The Guidelines state that the “events must
further the interests of the USMS in interacting and hosting various
individuals [with] whom and organizations with which the USMS officially
does business.” The Guidelines also require that “[a]ll R & R expenditures
must be approved by the Director” of the USMS and all purchases made in
accordance with DOJ procurement regulations.

     The USMS guidelines do not specifically state that purchasing
promotional items is an appropriate use of R & R funds. However, in a sub-


       24   28 U.S.C. § 530C(b)(1)(D).
       25  The Special Assistant told the OIG that prior to the written guidelines, all
requests to use the R & R funds were made through the USMS OGC and that USMS issued
the written guidelines in 2009 because Congress increased USMS’s R & R funding to
$30,000 from $6,000.


                                           8

heading entitled “Documentation should include,” the guidelines state that
for a “presentation or gift” the requesting employee should identify the
“[o]ccasion or purpose” of the item and the “[n]ame and title of recipient.” In
a second sub-heading entitled “[e]xamples of permissible uses of the R & R
fund,” the guidelines identify “[e]xtending courtesies to representatives of
foreign countries or state/local law enforcement officials,” and “[h]osting
events and providing mementos to visiting dignitaries and community
leaders, in furtherance of USMS interests,” both of which could apply to
promotional items.

       In November 2005, Congress passed the Science, State, Justice,
Commerce, and Related Agencies Appropriations Act. In the Act Congress
appropriated approximately $800,000,000 to the USMS and specifically
stated that $6,000 was available for official reception and representation
expenses. 26 Over the next four years, Congress passed several continuing
resolutions and the USMS budget increased slightly, but the funds available
for reception and representation remained at $6,000. In March 2009,
Congress passed an Omnibus Appropriations Act that increased the USMS
appropriation to $950,000,000 and made up to $30,000 of the
appropriation available for reception and representation expenses. 27 In
November 2011, Congress increased the USMS budget to $1,174,000,000,
but reduced its R & R fund back to $6,000. 28


IV.     Background Regarding the U.S. Marshals Service

       The USMS’s core missions are to provide physical security in
courthouses, safeguard witnesses, transport and produce prisoners for
court proceedings, execute court orders and arrest warrants, apprehend
fugitives, and seize forfeited property. All USMS duties and responsibilities
emanate from these core missions.

       A.        The Investigative Operations Division

      The IOD is one of six “operational” divisions in the USMS. 29 It is
responsible for providing support to both district and regional task forces to

      26 Science, State, Justice, Commerce and Related Appropriation’s Act, Pub. L. No.

109-108 (2005).
       27    Omnibus Appropriations Act, Pub. L. No. 111-8 (2009).
       28    Consolidated and Further Continuing Appropriations Act, 2012, Pub. L. No. 112-
55 (2011).
       29 The other divisions include: Judicial Security Division, Witness Security Division,
Justice Prisoner and Alien Transportation System, Tactical Operations Division, and
Prisoner Operations Division.


                                              9

assist in the capture of state, local, and federal felony fugitives; participating
in federal task forces; processing, reviewing, and coordinating the pursuit
and apprehension of international fugitives and foreign fugitives; managing
the USMS 15 Most Wanted Fugitives program; providing investigative and
intelligence support to other USMS units; and providing support for USMS
districts to assist in identifying, targeting, investigating, and prosecuting
non-compliant sex offenders pursuant to the Adam Walsh Act. The IOD
fulfills its mission through specialized branches, units and task forces,
including:

     1.	      Regional Fugitive Task Forces (RFTFs) – The USMS currently
              operates seven RFTFs that combine the efforts of federal, state,
              and local law enforcement agencies to locate and arrest
              dangerous fugitives and serve as a focal point for information
              sharing on fugitive matters. The large majority of RFTF
              members are “Task Force Officers” (TFO) assigned to the RFTF
              by state and local law enforcement agencies. 30 The first RFTF
              was the New York/New Jersey Regional Fugitive Task Force
              (NY/NJ RFTF). The requisition activities of this Task Force are
              discussed in Section V(C) of this report.
     2.	      Domestic Investigations Branch – This branch is responsible
              for developing, managing and overseeing programs relating to
              domestic fugitive operations, such as the Organized Crime Drug
              Enforcement Task Forces (OCDETF) and the High Intensity
              Drug Trafficking Areas (HIDTA) program.
     3.	      International Investigations Branch – This branch is
              responsible for tracking fugitives who flee the U.S. and locating
              and apprehending fugitives wanted by foreign nations
              suspected of being in the U.S. Some of the requisition practices
              of this branch are discussed in Section V(B) of this report.
     4.	      Sex Offender Investigations Branch (SOIB) – In 2006,
              Congress designated the USMS as the lead federal agency in
              locating sex offenders who fail to register or do not comply with
              their state’s registry requirements. The USMS launched the
              SOIB in 2009. Some of the requisition practices of this branch
              are discussed in Section V(B) of this report.
     5.	      Criminal Intelligence Branch – This branch provides tactical
              and strategic intelligence in support of criminal investigations,
              manages data sharing projects with other agencies, provides
              oversight of law enforcement and commercial information
              systems and tools used for investigations, and administers the

       30  TFOs are not USMS employees, but report to USMS Chief Inspectors who are in
charge of the RFTFs. The TFOs’ salaries are paid for by the law enforcement agencies that
assign them to the task forces.


                                           10

            Justice Detainee Information System – the USMS’s central law
            enforcement information system.
     6.	    Technical Operations Group (TOG) – The TOG is made up of
            three branches that provide technical support to the USMS
            operational divisions and include an Electronic Surveillance
            Branch, Air Surveillance Branch, and Tactical Support Branch.

       The IOD is responsible for the 15 Most Wanted Fugitives program,
which prioritizes the investigation and apprehension of dangerous and high-
profile fugitives. These cases are often referred to IOD by other USMS
components, other federal agencies, state and local police agencies, or the
National Center for Missing and Exploited Children. The IOD also ran other
programs through its branches during the period of time examined in this
report, including the “Fugitive Safe Surrender” program, which was an
“initiative that encourage[d] persons wanted for non-violent felony or
misdemeanor crimes to voluntarily surrender to the law enforcement
officials in a faith-based or other neutral setting.”

      B.    The USMS Procurement Process

      When a USMS employee determines the need to purchase a supply or
service, he or she completes a form entitled “Requisition for Procurement of
Supplies, Services, and Equipment,” which is also known as a USM-157.
The person doing so is referred to as “the requester” and fills in the
necessary portions of the form, including the request date, the delivery
address, a description of the item, and the object class code. The USM-157
is then given to requester’s unit administrative officer who determines
whether sufficient funds exist to purchase the item, and, if so, signs the
USM-157. After this, the administrative officer submits the USM-157 to the
“approving officer,” who is usually a senior USMS employee, such as a
section chief or director, who then either approves or denies the request.

       Once the senior official approves the USM-157, the requester
purchases the items, which are then shipped to the chosen destination.
After the items arrive, the requester or another third-party verifies that all
items were received and then someone else conducts a secondary
verification. The items are then put into storage.

       For larger purchases, the USMS must obtain bids from at least three
different vendors. However, if the cost of the purchase is less than $3,000
for supplies or $2,500 for services (known as the “micro-purchase level”),
the purchase can be made by USMS employees to whom the USMS has
issued “purchase cards,” without obtaining competitive bids. All of the
USMS requisitions for promotional items examined in this report were
“micro-purchases,” which do not require competitive bidding, and paid for
using the requesters’ purchase cards.

                                       11

       The USMS uses object classes to place requisition purchases into
categories for budgeting purposes. According to numerous witnesses there
was no object class specifically for promotional items and IOD employees
typically classified promotional items using a miscellaneous supplies object
class, which acted as a “catch-all” for items without specific object class
codes.


V.	     Factual Findings

      This section presents the factual findings from the OIG’s investigation.
In subpart A we discuss the overall purchase and use of promotional items
in IOD, examining both data and testimony. In subpart B we address
selected categories of promotional items, including challenge coins,
Christmas ornaments, silk scarves, and neckties. In subpart C we examine
the purchase and distribution of promotional items in a single, selected
component of the IOD – the NY/NJ RFTF – which was one of the
components of IOD that purchased and distributed the largest amount of
promotional items.

       A.	    IOD’s Purchases of Promotional Items, 2005-2010

      In this section, we examine the amount of appropriated funds the IOD
spent on promotional items and the types and amounts of promotional
items purchased by the IOD.

              1.	    Financial Analysis of IOD Promotional Items
                     Purchases between 2005-2010

      Figure 1 presents the amount of appropriated funds that the IOD
spent on promotional items, by category, during each fiscal year from 2005
to 2010 and the total amount spent during that entire 6-year period. The
chart is based upon a review of USMS requisition forms and/or invoices
submitted to the USMS by vendors that sold promotional items to the IOD
branches. 31




       31 The USMS provided the OIG with USM-157 requisition requests and
corresponding invoices relating to the purchase of promotional items. In some instances,
USMS provided the requisition request without a corresponding invoice or an invoice
without a corresponding USM-157. We included data from all of the requisition documents
we received when creating Figures 1, 2, and 3.


                                          12

Figure 1: Dollars Spent by the IOD Branches on Promotional Items,
Fiscal Years 2005-2010 32
           Item            2005           2006           2007             2008           2009           2010           TOTALS
 Coins
    Challenge          $ 6,615.85     $ 4,625.20     $ 8,099.90       $ 29,872.01    $ 32,309.96    $ 73,559.07    $ 155,081.99
    Sets               $   296.60     $       -      $ 6,025.86       $    198.06    $ 1,573.88     $    800.73    $   8,895.13
 Drinkware             $ 3,838.19     $ 2,984.78     $ 12,590.89      $ 9,644.52     $ 18,609.53    $ 43,290.50    $ 90,958.41
 Pins
    Lapel              $ 3,044.50     $ 5,494.67     $ 7,005.38       $   6,815.90   $   7,265.59   $ 6,970.28     $ 36,596.32
    Sets               $        -     $   645.00     $ 1,340.50       $   6,359.28   $   4,242.83   $ 14,463.23    $ 27,050.84
 Patches, Emblems,
 Badges                $ 4,908.15     $ 4,109.00     $ 6,956.24       $ 20,692.64    $   7,586.65   $ 15,048.30    $ 59,300.98
 Writing Implements
    Pens or Pen Sets   $    53.00     $ 5,949.11     $ 11,228.25      $ 12,541.63    $ 11,746.45    $ 29,766.90    $ 71,285.34
    Pencils            $   104.00     $        -     $         -      $         -    $    611.69    $    947.96    $  1,663.65
 Other Stationary      $   776.50     $ 2,637.61     $    133.75      $ 4,022.79     $ 10,900.39    $ 17,056.98    $ 35,528.02
 Clothing              $ 3,340.10     $ 7,975.50     $ 4,523.25       $ 10,425.65    $ 12,968.56    $ 17,794.46    $ 57,027.52
 Neckties              $        -     $        -     $         -      $         -    $ 4,178.00     $ 2,932.00     $  7,110.00
 Scarves               $        -     $        -     $         -      $         -    $ 3,162.00     $ 1,056.00     $  4,218.00
 Bags                  $    59.85     $   335.00     $    226.50      $    553.50    $ 1,880.10     $ 1,784.48     $  4,839.43
 Cufflinks or Tie
 Pins/Bars             $          -   $          -   $    120.00      $     206.32   $   5,176.14   $   3,287.14   $    8,789.60
 Blankets or Throws    $ 3,222.50     $ 2,655.00     $    345.00      $   1,215.38   $   4,687.90   $   3,958.79   $ 16,084.57
 Key chains, Tags or
 Rings                 $    513.30    $ 4,050.00     $ 2,901.72       $   2,231.50   $   4,628.84   $   7,218.50   $ 21,543.86
 Stuffed Bears         $         -    $   107.00     $   758.00       $   1,094.00   $   3,100.80   $   1,206.24   $  6,266.04
 Christmas Ornaments   $          -   $          -   $          -     $   2,875.00   $   4,622.70   $   6,108.25   $ 13,605.95
 Crystal Statues       $        -     $        -     $   630.50       $         -    $ 3,044.63     $ 1,317.56     $   4,992.69
 Other                 $ 2,366.08     $   102.00     $ 4,236.62       $ 13,858.31    $ 40,696.00    $ 45,208.77    $ 106,467.78
 Other: Not Itemized   $        -     $ 5,867.00     $   134.00       $ 5,200.50     $ 25,193.55    $ 19,417.32    $ 55,812.37
 TOTALS                $ 29,138.62    $ 47,536.87    $ 67,256.36      $ 127,806.99   $ 208,186.19   $ 313,193.46   $ 793,118.49


As revealed in Figures 1 and 2, the growth in IOD promotional items
expenditures from fiscal years 2005 to 2010 was dramatic. The amount of
money that IOD spent on promotional items increased by 63 percent
between fiscal years 2005 and 2006, 42 percent between fiscal years 2006
and 2007, 90 percent between fiscal years 2007 and 2008, 63 percent
between fiscal years 2008 and 2009, and 50 percent between fiscal years
2009 and 2010. Between fiscal years 2005 and 2010, a 6-year period, the
total amount spent by IOD on promotional items increased by 975 percent.




           As described in Sections IV(B) and (C), IOD did not have a “promotional items”
           32

object class with which to categorize these purchases at the time they were purchased.
Instead, IOD employees used a generic object class entitled “miscellaneous supplies” to
categorize promotional items purchases. Based upon witness interviews and the definition
of “promotional items” developed by the USMS in Policy Directive 1.2, issued on October 5,
2011, and attached to this report as Appendix C, we concluded that the items contained in
this chart were promotional items.


                                                                    13

Figure 2: Total IOD Promotional Item Expenditures by Fiscal Year

    $350,000

    $300,000

    $250,000

    $200,000

    $150,000

    $100,000

     $50,000

            $-
                  2005          2006         2007         2008         2009          2010

       In fiscal year 2005, the IOD had 112 full-time operational employees
who, according to witnesses, were in a position to distribute promotional
items. 33 That same year, as illustrated in Figure 1, the IOD spent
$29,138.62 on promotional items, or $260.17 per operational employee. 34
In fiscal year 2006, the IOD spent $308.68 on promotional items for each of
its 154 operational employees. In the next fiscal year, 2007, there were 206
full-time operational employees and the IOD spent $326.49 per operational
employee on promotional items. In fiscal year 2008, the IOD had 210
operational employees and spent an average of $608.61 per employee on
promotional items. In fiscal year 2009, the number of operational
employees increased to 259 and spending on promotional items was
$803.81 per operational employee. The next fiscal year, the number of
operational employees was 293 and spending on promotional items
increased to $1,068.98 per person. IOD’s spending on promotional items
per operational employee more than tripled between fiscal years 2005 and
2010.




       33 Full-Time operational employees include deputy U.S. Marshals and others who

were in a position to interact with other law enforcement agencies. It does not include
administrative personnel.
       34 We are not asserting in this report that each full-time operational employee
distributed promotional items, but instead are expressing the cost of promotional items on
a per-employee basis to give a different perspective on the magnitude of these expenditures.


                                            14

       Figure 3 presents the amount of appropriated funds spent on
promotional items by the individual IOD components between fiscal years
2005 and 2010. The 7 RFTFs accounted for 43 percent of total promotional
items purchased by the IOD. The NY/NJ RFTF, which we examined as part
of this report, was responsible for 48 percent of the promotional items
purchased by the RFTFs. In just 2 years, the Sex Offender Investigations
Branch spent $166,288.97 on promotional items, which made up 21
percent of IOD’s total spending on promotional items for all 6 years.
Combined, the RFTFs and the SOIB accounted for 64 percent of all
purchases of promotional items made by IOD during the 6 fiscal years.




                                   15

Figure 3: Total Promotional Items Expenditures by IOD Division/Branch, Fiscal Years 2005-2010


                                 2005         2006      2007             2008          2009         2010         Totals     Branch total
Headquarters                       $0.00      $528.00 $13,118.55        $25,414.98   $15,083.95   $22,456.31   $76,601.79    $76,601.79
Regional Fugitive Task                                                                                                      $337,419.52
Forces
  Capital Area (CARFTF)        $11,302.10    $2,727.50   $1,836.00       $4,481.00     $900.00      $780.00 $22,026.60
  Gulf Coast (GCRFTF)               $0.00        $0.00   $9,554.26       $6,832.16   $14,525.30   $13,365.52 $44,277.24
  Great Lakes (GLRFTF)          $1,424.09    $9,898.37   $2,829.50       $6,741.50    $9,308.75   $14,319.17 $44,521.38
  NY/NY (NY/NJ RFTF)            $5,384.80   $17,482.88   $7,492.50      $27,389.68   $43,227.75   $60,821.51 $161,799.12
  Pacific Southwest              $834.50     $1,876.00       $0.00       $3,440.00    $2,595.50    $1,405.00 $10,151.00
  (PSWRFTF)
   Southeast (SERFTF)           $1,488.25    $4,477.00   $7,717.49      $18,568.49   $10,399.55    $9,025.90   $51,676.68
   Florida (FRFTF)                  $0.00        $0.00       $0.00       $2,967.50        $0.00        $0.00    $2,967.50
Domestic Investigations         $1,421.00    $1,383.86   $1,995.00       $3,350.00    $4,001.56    $2,748.00   $14,899.42    $55,873.40
Branch (DIB)
   OCDETF                           $0.00    $6,373.00 $12,445.08        $7,992.75    $7,457.25    $6,705.90   $40,973.98
International Investigations    $1,220.54    $2,364.26      $0.00        $7,821.00   $22,779.75   $23,535.27   $57,720.82    $57,720.82
Branch
Sex Offender Investigations         $0.00       $0.00       $0.00           $0.00    $45,241.55 $121,047.42 $166,288.97 $166,288.97
Branch (SOIB)

Criminal Intelligence Branch        $0.00       $0.00    $1,611.60          $0.00        $0.00    $17,291.00   $18,902.60    $18,902.60
(CIB)
Technical Operations Group       $800.00      $426.00    $7,835.30      $12,302.88   $29,889.28   $19,692.46   $70,945.92    $70,945.92
(TOG)
Unspecified/Unable to           $5,263.34       $0.00     $821.08         $505.05     $2,776.00       $0.00     $9,365.47     $9,365.47
Determine
Totals                         $29,138.62   $47,536.87 $67,256.36      $127,806.99 $208,186.19 $313,193.46 $793,118.49 $793,118.49



                                                                 16

            2.	   Witness Accounts Regarding IOD Purchases and Uses
                  of Promotional items

       Witnesses from the IOD stated that during the 2005 to 2010 time
period neither the USMS nor the Department had a specific policy regarding
the purchase, tracking, or distribution of promotional items. According to
one witness, the IOD was relying on the hope that its employees would use
“good judgment” when purchasing promotional items. A large majority of
witnesses told us that when promotional items were received they were
stored in desk drawers, locked closets, and distributed to IOD employees on
an as-needed basis without identifying or tracking who took the promotional
items, the number of promotional items taken, the purpose for which the
promotional items would be used, or to whom they would be given.
Furthermore, the vast majority of witnesses had no knowledge, or limited
knowledge, of the R & R fund. The former chief of IOD’s Policy and
Programs Division told us that there was no policy limiting the amount of
money that IOD could spend on promotional items and the agency was not
required to keep track of the promotional items it was purchasing and
distributing.

       The USMS had approved vendors that marketed and sold USMS-
themed merchandise, including promotional items, through websites. The
retailers sold a variety of USMS-themed items, such as challenge coins,
hats, stuffed animals, patches, T-shirts, sweatshirts, blankets, drink ware,
holiday ornaments, pens, cufflinks, lapel pins, clocks, watches, coasters,
plaques, medallions, podium banners, and crystal statues, among many
other types of items.

       IOD witnesses, including USMS managers and deputy U.S. Marshals,
told us that they gave promotional items to foreign and domestic dignitaries,
state and local law enforcement officers, chiefs of police, non-USMS
individuals who provided assistance to the USMS, federal officials from
other law enforcement agencies and TFOs assigned to RFTFs. These
witnesses told us they needed to reciprocate similar gifts from their
counterparts in other agencies. They also provided various justifications for
providing promotional items to these individuals. Some witnesses stated
that promotional items were given to people attending USMS conferences to
thank them and to provide the attendees with USMS contact information.
Others told us that promotional items were given to people to express
USMS’s appreciation of their assistance (or the assistance of their agency)
during USMS investigations. Witnesses also told us that they used
promotional items to provide “goodwill” and promote the USMS and, in
particular, their IOD branch, to state and local law enforcement agencies for
the purposes of securing the participation and support of those agencies,
explaining the role of the USMS and the Adam Walsh Act, developing


                                     17

relationships, and convincing the law enforcement agencies to work in
partnership with the USMS on various projects.

       Several witnesses told us that promotional items were used for
informal awards and given to USMS employees and state and local TFOs.
While the USMS did not have a specific policy on promotional items, as
described above in Section III, both the Department and the agency did have
policies relating to internal awards. According to witnesses, those policies
only involved the awarding of cash and paid leave and did not include the
distribution of promotional items or providing awards to TFOs.

       According to Joanne Pearlman, an attorney-advisor with the JMD’s
Office of General Counsel, the USMS relies on the public for help with
fugitive apprehensions and, to a certain extent, relies upon the goodwill of
others to perform its missions. 35 She stated that the USMS has some
discretion on how to spend its appropriated funds and that USMS officials
have a better sense of what furthers the agency’s mission than others.
Consequently, according to Pearlman, if the USMS could document valid
reasons for the use of promotional items and if the promotional items
furthered the USMS’s mission, a legal argument could be made to support
the USMS’s purchase of the promotional items.

      B.     Selected IOD Purchases of Promotional Items

      In this section we describe the IOD’s purchase of selected categories
of promotional items between 2005 and 2010, including challenge coins,
Christmas ornaments, neckties and silk scarves, and retirement gifts.

             1.     Challenge Coins

        Challenge coins are small coins or medallions bearing an
organization’s insignia or emblem and are carried by the organization’s
members. In a military setting, challenge coins are normally presented by
unit commanders in recognition of special achievements by members of the
unit. Until recently, challenge coins were uniquely military, but law
enforcement agencies throughout the U.S. at both the state and federal
level, including the USMS, have adopted their use. According to several
USMS employees, challenge coins promoted unit pride.




      35   Joanne Pearlman is a pseudonym. We used pseudonyms throughout this report
to protect the privacy of USMS and DOJ employees who are not current or former Senior
Executive Service personnel.


                                         18

Photo 1: IOD Challenge Coins




       Figures 1 and 3 show the annual number and cost of challenge coins
purchased by IOD during 2005 to 2010. As shown in the figures, the
different branches within IOD purchased 28,586 challenge coins for
$155,081.99 (an average cost of $5.43 per coin) during this 6-year period. 36
The money used to purchase these challenge coins came from funds
appropriated to the USMS by Congress. The amount of appropriated funds
spent on challenge coins between 2005 and 2010 increased 1000 percent.

       Several witnesses told us that every division and unit within the
USMS, including the Director and Associate Director of the USMS, had a
unique challenge coin. Robert Finan, a former Associate Director for
Operations, who served in that position from 2008 to 2011, told us that he
gave his associate director coin (depicted in Photo 1) to visiting dignitaries,
such as senior leadership officials from the California Judiciary. He stated
that he was not trying to cement a relationship with the officials, but by
giving them a challenge coin he was being friendly. Finan also told us that
he would give his challenge coins to USMS employees who were leaving one
of his divisions or retiring from the USMS.

      A contractor who ordered many of the challenge coins for the IOD told
us that the coins were “used basically towards awards,” and given to
dignitaries and to police departments that assigned officers to fugitive task
forces. Other witnesses, including USMS managers and deputy U.S.
Marshals, made similar statements, telling us that the challenge coins were
used for “diplomacy,” awards for local police officers assigned to task forces,
“networking,” “pride,” “goodwill,” and for promoting the different branches or
task forces. The witnesses also told us that obtaining the cooperation and
assistance of local community leaders, law enforcement agencies, and
others is of paramount importance to the functioning of the USMS and that

       36 This figure includes the cost of the coin itself, set-up charges, and shipping and
handling expenses for the challenge coins. On a per-operational employee basis, the
volume of coins purchased was 10 coins per employee in fiscal year 2005, 3 coins in fiscal
year 2006, 7 coins in fiscal year 2007, 26 coins in fiscal year 2008, 22 coins in fiscal year
2009, and 48 coins per operational employee in fiscal year 2010.


                                             19

the ability to give challenge coins or other promotional items to individuals
was valuable to that effort. Others told us that they simply traded challenge
coins with officers and agents from other domestic and foreign law
enforcement agencies.

      The IOD purchased 14,026 challenge coins in fiscal year 2010, which
was an increase of 8,429 (150 percent) over fiscal year 2009. One
explanation for that jump in challenge coin expenditures was the creation of
the SOIB in late 2009, which was formed to handle the USMS’s
responsibility under the Adam Walsh Act of assisting state and local
jurisdictions with locating and apprehending sex offenders who violated sex
offender registration requirements. Patricia Albright, a Management and
Program Analyst in the SOIB, told us that the Chief of the SOIB approved
the design of an SOIB coin in 2009 and then the unit placed orders for
challenge coins for 15 different offices located in 8 different SOIB regions
and additional coins to distribute at training seminars. 37

       A Chief Inspector of the SOIB, told us that when he was launching the
SOIB in 2009, he was directed by the SOIB’s then-Acting Chief to “get
[SOIB’s] name out there,” explain the SOIB’s purpose, and to purchase
challenge coins to provide to individuals with whom the unit made contact.
The then-Acting Chief told us that he probably directed the regional SOIB
chiefs to purchase 500 challenge coins each to give away to local police
departments. He stated that because the majority of the SOIB’s cases
started at the state and local level, it was important for Deputy U.S
Marshals to make connections with local officials and that giving them
challenge coins would provide a token for state or local agents to remember
to call the USMS for cases involving non-compliant sex offenders. Albright
made similar comments and told us that the purpose of the SOIB challenge
coin was to promote the SOIB and that challenge coins could help build
relationships with local law enforcement, whose assistance was necessary to
the fulfillment of the Adam Walsh Act requirements.

      Ultimately, SOIB management approved the purchase of 7,805 SOIB
challenge coins, for $41,658.53 in March, May, and September 2010. The
SOIB challenge coins accounted for approximately 56 percent of the IOD
challenge coins purchased in 2010, and 57 percent of the money spent on
coins that year.

      SOIB also purchased challenge coins for special events that were
unrelated to SOIB’s mission. For example, in 2009, the USMS celebrated its
220th anniversary. In August of that year, SOIB ordered 290 of the 220th
anniversary challenge coins (see Photo 1, above) for $1,950. According to

      37   Patricia Albright is a pseudonym.


                                               20

witnesses, the USMS was celebrating its anniversary nationally, and agency
employees were using the challenge coins and other items to promote the
USMS. The 220th Anniversary coins were distributed at various functions,
including a rodeo.

       In another instance, IOD personnel approved the purchase of 350
“America’s Most Wanted 1000th Capture” challenge coins for $1,680. 38 A
contractor who provided budget support to the International Investigations
Branch told us that the branch used appropriated funds to purchase the
coins. According to Supervisory Inspector Carla Russert, the producers of
the television show “America’s Most Wanted” held a celebration in New York
City to mark the 1000th capture of a fugitive profiled on the television
show. 39 Gift bags, which included the challenge coins purchased by the
IOD, were distributed to all of the party attendees, which included USMS
employees, state and local law enforcement officials, and private citizens
associated with the show.

                2.     Christmas Ornaments

     Beginning in approximately 2008 and continuing into 2010, IOD
management authorized the purchase with appropriated funds of 1,679
USMS-themed Christmas ornaments. 40 The ornaments cost a total of
$13,605.95, an average cost of $8.10 per ornament.

Photo 2: 2008, 2009 and 2010 USMS Christmas Ornaments
                             Source: Charles G. Brown, Inc. (t/a: API).




       38  America’s Most Wanted was a television show that reenacted true crimes and
profiled the individuals accused of those crimes. The purpose of the show was for viewers
to provide law enforcements officials with information leading to the apprehension and
arrest of the individuals suspected of committing the oftentimes violent offenses.
       39   Carla Russert is a pseudonym.
       40 Because of a USMS directive banning the purchase and distribution of
promotional items, which we discuss below, none of the 453 ornaments that were
purchased in 2010 were distributed. According to one witness, the 453 ornaments, which
cost $2,725, were still in his office at the time of his interview in June 2012.


                                                21 

       According to witnesses, the ornaments were typically ordered by the
Assistant Director of IOD for the purpose of distributing them to IOD
personnel and guests at the annual Christmas party. Finan, who was
Associate Director for Operations and oversaw the Operations Divisions,
including IOD, for two of the years we examined in this report, told us that
he never authorized the purchase of ornaments, but knew that they were
given out as gifts. According to Assistant Chief David Kellerman, the
ornaments were given to IOD employees as a “word of encouragement” and
“recognition of their work done throughout the year.” 41 He also stated that
the ornaments improved morale and that the USMS employees were
“generally appreciative” for receiving them. Other witnesses told us that
USMS delivered Christmas ornaments to the individuals operating the tip-
lines at America’s Most Wanted.

      The Financial Program Manager for the Sex Offender Branch of IOD,
who verified that funds were available for the purchase of 285 ornaments in
2008 and 310 in 2009 told us that she did not know why she signed the
request for the ornaments, but that doing so was “stupid.” 42 She also told
us that IOD’s purchase of the ornaments was “insane” and “financially
irresponsible.” Russert, who approved the purchase of 285 ornaments in
2008, told the OIG that she “didn’t think much” of ordering the ornaments
and that she thought they were “cute.” A Deputy Chief in the IOD told us
that he approved the purchase of 250 ornaments in 2009 because the
individual coordinating the order of the ornaments worked in his division
and likely told him that (former) Assistant Director Mike Earp authorized
the purchase. 43 The Deputy Chief also said that he did not know for what
purpose the ornaments were used, but “assum[ed] they were given out” and
“never felt there was an issue with [promotional items].”

                3.    Neckties and Silk Scarves

       Beginning in August 2009, several IOD branches began purchasing
silk scarves and neckties. Between 2009 and 2010, IOD purchased 104 silk
scarves for $4,218, or $40.55 per scarf and 246 silk ties for $7,110, or
$28.90 per necktie. These items were particularly popular with the
International Investigations Branch, which is responsible for apprehending
fugitives that are wanted by foreign nations and believed to be in the United

       41   David Kellerman is a pseudonym.
       42 The Financial Program Manner also signed off on the purchase of 450 ornaments

in 2010, but, in that instance, the request did not identify the items being purchased, but
instead listed the requested items as “supplies.”
       43  Mike Earp retired from the USMS in 2011 and initially agreed to an interview
with the OIG. However, he cancelled the interview and did not return our telephone calls or
e-mails to reschedule the interview.


                                              22

States. Witnesses from the International Investigations Branch told us that
the silk ties and scarves were given to their foreign counterparts as a
gesture of goodwill, as an expression of thanks, and in some instances, as
farewell gifts to foreign officials whose embassy tours had ended. A Chief
Inspector with the International Investigations Branch told us that there
were a lot of promotional items to share as “goodwill” and that he wanted to
purchase promotional items that he thought were appropriate, such as ties,
cufflinks, and scarves for women. He explained to us that these items were
appropriate because when he travelled to foreign jurisdictions, he received
similar items from his foreign counterparts.

       The purchasing of scarves and neckties was not limited to the
International Investigations Branch. We also learned that in addition to the
first order of neckties, IOD officials from other branches ordered both items
plus personalized boxes for the neckties bearing the names of the chiefs of
the TOG and the SOIB, as well as boxes that only had the USMS logo. 44
According to the Financial Program Manager for the SOIB, she placed the
order for personalized boxes for the ties because she thought it was
“awesome.” However, she told us that when the boxes arrived with the
various unit chiefs’ names and titles printed upon them, the managers were
“mortified” and removed the items from the boxes and never used them.
The Financial Program Manager also told us that purchasing the boxes and
the ties was “poor financial management…poor taste and poor judgment.”

              4.      Retirement Awards

       The anonymous letter to the OIG alleged that IOD managers were
using appropriated funds to purchase costly retirement gifts for other IOD
and USMS managers. Witnesses told us that certain promotional items,
such as 4-inch and 8-inch crystal statues, horse blankets in a decorative
box, pewter desk sets, and plaques were used as retirement gifts for USMS
employees and, in some instances, non-USMS law enforcement officers.
(See Photo 3, below) Kellerman stated that someone from senior
management, either the Assistant Director of IOD, Branch Chiefs, or Chief
of Investigative Operations would determine what type of items to purchase
for retirements. He stated further that he was never given “firm direction”
on how much money to spend on retirement gifts and that the senior
managers would tell him what they wanted him to purchase. Finan told us
that the retirement gifts were paid for using funds appropriated to the
USMS and that it was appropriate for USMS to do so because it was a “gift


       44 We could not determine the cost of the individual personalized boxes, as the fee
appears to have been included in the cost of the necktie, which was $25 per tie. However,
the “Personalization Setup” for each manager’s boxes was $50, for a total cost of $100.


                                            23

of service” to the employees who had served the USMS for an extended
period of time.

Photo 3: USMS Large Crystal Statue and Plaque
                             Source: Charles G. Brown, Inc. (t/a API).




       Between 2005 and 2010, IOD purchased 485 blankets or throws for a
total price of $16,084.57 for an average of $33.16 per blanket or throw. The
blankets ranged in price from $25 for a fleece blanket to $149 for a lamb
wool blanket and custom box with the USMS seal. The division also
purchased 63 crystal statues in both large and small sizes for $4,992.69 for
an average of $79.24 per statue. The large statue cost $125 and the small
statue cost $38.

       C.       The New York/New Jersey Regional Fugitive Task Force

       In this section, we examine the expenditures of the NY/NJ RFTF to
illustrate how an individual IOD branch purchased and used its
promotional items.

       In 2000 Congress passed the Presidential Threat Protection Act,
which directed the Department to “establish permanent Fugitive
Apprehension Task Forces consisting of federal, state, and local law
enforcement authorities in designated regions of the U.S., to be directed and
coordinated by the USMS, for the purpose of locating and apprehending
fugitives.” 45 According to Water Blanco, the Chief Inspector of the NY/NJ
RFTF, the mission of the RFTFs is to “target the most dangerous, violent
felony fugitives.” 46

     In May 2002, the USMS launched the NY/NJ RFTF, its first RFTF.
Blanco, who became the task force’s commander in 2008, told us that it is


       45 Presidential Threat Protection Act of 2000, Pub. L. No. 106-544, § 6, 114 Stat.
2718, (December 19, 2000).
       46   Walter Blanco is a pseudonym.


                                               24
the “flagship and the model” of all other regional fugitive task forces. 47 He
told us that in order to start the task force the USMS had to get federal,
state, and local law enforcement agencies to join the NY/NY RFTF. This
included convincing those agencies to refer cases to the task force for
investigation and assigning law enforcement officers and agents, known as
TFOs, to the program on a full-time basis. Blanco also stated that the law
enforcement agents assigned to the NY/NJ RFTF become “deputized U.S.
Marshals” who have all of the authorities of Deputy U.S. Marshals.

       Blanco, Laura Ballard (the Administrative Officer of the NY/NJ RFTF),
and Deputy Commander John Erickson told us that the size of the task
force and the number of participating law enforcement agencies has grown
dramatically since 2002. 48 The NY/NJ RFTF began with 3 offices in 2002,
added an additional office in 2003, increased to 6 offices in 2004, and
jumped to 13 offices in 2007. It initially had 30 TFOs when it began, added
20 more in 2003, increased by 75 between 2004 and 2006, and expanded to
350 in 2007. At present, the NY/NJ RFTF is working with 80 federal, state,
or local agencies. It has 13 offices and 316 full-time investigators from
participating agencies.

       The TFOs assigned to the NY/NJ RFTF are not USMS employees and
do not qualify for awards under the FEIA. Consequently, according to
Blanco and Erickson, as managers they cannot give time-off or similar
awards to TFOs who work for the task force for performing beyond
expectations or closing difficult or dangerous fugitive apprehension cases.
Blanco and Erickson told us that in order to compensate for this deficiency
they provided promotional items, such as challenge coins and plaques, to
award TFOs for the purpose of incentivizing them to continue in their efforts
for the NY/NJ RFTF. Erickson told us that doing so was “good for
camaraderie,” and a way to distinguish people for “good work” and “keep
good morale.” NY/NJ RFTF Supervisory Inspector Richard Danvers told us
that providing awards to the TFOs at the end of the year was a way of
fostering “friendly competition” and “productivity” in the task force and
made the TFOs feel appreciated. 49 Danvers also told us that he did not view
the awards as promotional items, but instead as operational expenses.

      As part of working with local police and state law enforcement
agencies, the NY/NJ RFTF runs yearly training programs for all task force
members. The NY/NJ RFTF sent 4,132 TFOs to 47 different training
programs between 2005 and 2010. Blanco told us that everyone who
      47 Blanco was preceded as commander of the NY/NJ RFTF by two different Deputy
U.S. Marshals during the period of time examined in this report.
      48   Laura Ballard and John Erickson are pseudonyms.
      49   Richard Danvers is a pseudonym.


                                             25

attends the training, whether a USMS employee or TFO, receives a shirt,
pants, and hat in order to make them identifiable at the training facility.
Erickson told us that in addition to the clothing, the TFOs attending
training are sometimes given tactical gear, such as mini-flashlights that can
be used for “lowlight emanation searching.” 50 As another part of training,
Erickson told us that the trainee with the best shooting score is awarded
with a “Top Gun” challenge coin (See Photo 4).

Photo 4: NY/NJ RFTF “Top Gun” Challenge Coin
                                    Source: EPolice Supply




       During the period of time examined by the OIG, the NY/NJ RFTF also
participated in the Federal and Local Cops Organized Nationally (FALCON)
and Fugitive Safe Surrender programs, in which the NY/NJ RFTF worked
with local law enforcement officers and civilian volunteers to help fugitives
surrender and clear their warrants at non-threatening locations, such as
churches. The NY/NJ RFTF supervised 9 of these programs between 2005
and 2010. Erickson told us that the majority of people involved in the
programs are non-USMS individuals and included, among other things,
volunteers from social services agencies and local law enforcement agencies.
He stated further that as part of the program, the NY/NJ RFTF provided
pins to the volunteers so that the participants would recognize volunteers
and to thank people for their support.

      Blanco and Erickson also told us that promotional items were often
given to dignitaries, law enforcement officers from state and local police
forces and other federal agencies, and, on occasion, to other USMS
personnel. Blanco also told us that he used promotional items as a means
to say “thank you” to other law enforcement personnel and to promote

       50  We found that the T-shirts, pants, and hats, distributed by the NY/NJ RFTF at
these training sessions were parts of a uniform, that the mini-flashlights were “tactical”,
and that neither were promotional items. Consequently, we did not include items identified
on the USMS invoices as being a “uniform” or “tactical” in our analysis of promotional items
purchased by the IOD.


                                             26

goodwill toward the USMS, and that networking with corporate or
department heads, law enforcement, and community and religious leaders
was paramount to the USMS’s mission. He also told us that he was
embarrassed by the fact that he can no longer give out promotional items,
especially when his counterpart is likely to give him a promotional item from
his or her agency.

      Like the other units in the IOD, the NY/NJ RFTF purchased and used
challenge coins. The NY/NJ RFTF purchased different types of challenge
coins, including a unit coin, and a “commander’s coin.” Danvers said he
gave unit coins to his TFOs so that they could give them to other law
enforcement agencies while on travel related to apprehending fugitives.
Blanco told us he gave “commander’s coins” to individuals visiting the
NY/NJ RFTF headquarters and to thank people for assisting the USMS.
(See Photo 5).

Photo 5: NY/NJ RFTF Commander’s Coin




      The NY/NJ RFTF gained notoriety in 2008, 2009, and 2010, when
several of its deputy U.S. Marshals and TFOs were featured in the Arts &
Entertainment Network’s (A & E) reality television show entitled
“Manhunters: Fugitive Task Force.” According to A & E’s website, it had
“unparalleled and unprecedented access, granted by the Department of
Justice and the U.S. Marshals, to ride along with the agents of the NY/NJ
Task Force, the busiest in the country, as they track[ed] down violent
criminals on the run.”




                                     27

Photo 6: Manhunters: Fugitive Task Force Promotional Posters




       Blanco and Danvers told us that the Manhunters program was very
important to the USMS and Director John Clark. Blanco told us that
Director Clark and the USMS OGC approved the NY/NJ RFTF’s
participation in the program and that he was told by his regional chief that
Director Clark viewed the Manhunters program as a “homerun” for the
USMS and believed that Blanco should keep promoting the show.

      A & E developed merchandise to promote the Manhunters program,
including hooded sweatshirts, T-shirts, and coffee mugs, and produced
DVDs of the series, all of which are available for purchase from A & E’s
website. According to Blanco, A & E provided him with some of its
merchandise, including posters, T-Shirts, and DVDs and in other instances
the USMS purchased these same types of items for the NY/NJ RFTF. He
told us that he used promotional items related to the Manhunters program
at seminars, college career days, and similar events and gave the items
away to people who asked for them. Blanco also stated that after
Manhunters premiered, distributing promotional materials related to the
show made “the Marshals Service look great,” which was good for “public
awareness” and “community relations.”

      Blanco told us that there were no policies for him to rely upon when
approving USM-157s for the purchase of promotional items. He stated
further that he followed “standard business practices from previous

                                     28
commanders” when approving requisition requests. However, as detailed
below, we found that the quantities of promotional items purchased in
recent years by the NJ/NY RFTF (like other components of IOD) were
unprecedented.

        Blanco and Erickson, who acted as approver and/or budget officer on
all of the NY/NJ RFTF promotional items purchases, were located in two
different offices and travelled often. According to Blanco, Erickson, and
Ballard, when a NY/NJ RFTF deputy marshal wanted to make a purchase,
he or she would send an e-mail to Blanco and Erickson making the request.
The three witnesses told us that if Blanco approved the purchase, he would
do so through an e-mail response to the requester and Erickson and copy
Ballard. Ballard would then complete the USM-157 and would use
signature stamps to sign the document for Blanco and Erickson. Blanco
told us that he used this process, rather than the process described in
Section IV(B), above, because he was often travelling and that this was most
efficient way to handle requisition requests. Blanco and Ballard told us that
they ceased engaging in this activity when they were advised it was
inappropriate.

      Figure 4 below details the amount of money spent by the NY/NJ RFTF
on promotional items during fiscal years 2005 through 2010. Blanco,
Erickson, and Ballard told us that the reason for the increase in spending
on promotional items during this period was because the size of the NY/NJ
RFTF was growing. 51 As illustrated in Figure 4, the task force’s spending on
promotional items grew by 1,029 percent during the 6-year period examined
by the OIG.




        51 As discussed above, the NY/NJ RFTF grew from 3 offices and 30 TFOs in 2002 to

13 offices and 350 TFOs in 2007.


                                          29

Figure 4: Promotional Items Purchased by the NY/NJ RFTF, Fiscal Years 2005 - 2010 52

                                                                                     Fiscal Year
                   Item                   2005          2006               2007                2008          2009         2010        TOTALS
 Challenge Coins                                                                         $6,173.50    $ ,349.74     $5,757.20    $18,280.44
 Drinkware 53                        $856.80                         $1,178.00           $1,821.73    $1,363.00     $9,938.34    $15,157.87
 Pins
   Lapel                             $1,382.50     $870.00           $888.25             $1,411.00    $271.92       $562.57      $5,386.24
   Sets                                                                                  $2,505.00    $160.75       $3,113.54    $5,779.29
 Patches, Emblems, Badges           $660.50        $1,833.00         $1,325.25           $1,711.99    $2,277.88     $1,853.25    $9,661.87
 Writing Implements
   Pens or Pen Sets                                $2,245.00         $1,815.00           $1,800.81    $1,199.69     $730.11      $7,790.61
   Pencils                                                                                            $58.22                     $58.22
 Other Stationery 54                               $522.88                               $498.75                    $206.38      $1,228.01
 Clothing                                                            $152.00             $2,145.00                  $7,813.00    $10,110.00
 Neckties                                                                                             $785.00       $1,400.00    $2,185.00
 Bags                                                                                                               $52.56       $52.56
 Cufflinks or Tie Pins/Bars                                                                           $654.00       $900.00      $1,554.00
 Blankets or Throws                  $2,485.00     $2,655.00                                                        $2,997.00    $8,137.00
 Key chains, Tags or Rings                         $3,490.00         $1,200.00           $1,700.00    $1,468.00     $1,246.20    $9,104.20
 Other 55                                                            $800.00             $2,421.40    $3,446.00     $4,834.04    $11,501.44
 Other: Not Itemized 56                            $5,867.00         $134.00             $5,200.50    $25,193.55    $19,417.32   $55,812.37
 TOTALS                              $5,384.80          $17,482.88          $7,492.50    $27,389.68   $43,227.75    $60,821.51   $161,799.12


            52   Costs include pro rata share of shipping charges calculated based on number of items in the shipment.
            53   Drinkware includes mugs, glasses, tumblers, and water bottles.
            54   Other stationery includes padfolios, journals, and rulers.
         Other includes business card cases, mini-bats, wall plaques, pillows, coasters, poker chips, engraved cutting tools,
            55

ornamental bookmarks, mouse pads, and mug wraps.
        56 We analyzed the requisition requests provided to us by the USMS for purchases made by the NY/NJ RFTF to determine

the amount of appropriated funds spent on promotional items and compared our findings to a spreadsheet created by Ballard
depicting her analysis of total dollars spent by the NY/NJ RFTF on promotional items. Ballard apparently included requisition
requests that were not provided to the Inspector General and we have included the difference in our analysis as “Other: Not
Itemized” to account for the difference.




                                                                               30

      D.    Actions Taken After the Complaint

      After the OIG received the anonymous letter and opened this
investigation, the JMD and the USMS took several steps to address the
issue of purchasing promotional items by Department personnel.

            1.    JMD Seminars

      In late 2010, representatives from the Offices of the Controller and the
Assistant Attorney General provided seminars to all of the Department’s
components, including the USMS, regarding “Trinkets, Travel, and Other
Talked About Uses of Government Funds.” Pearlman, the attorney-advisor
with JMD’s OGC, told us that the seminars were given in response to the
anonymous letter and concerns about fiscal responsibility. The USMS
received training on November 3, 2010. The two and one-half-hour program
included a half-hour discussion on appropriations, awards, and gifts, and a
20-minute group discussion. JMD’s attorneys provided specific situational
examples in a handout given to the attendees in which they described
scenarios involving the use of appropriated monies for promotional items.
In a subheading entitled “Purchasing of Silk Neckties with Agency Seal,”
JMD provided the following example and commentary:

      As a “thank you” for several government and non-government
      staff, an Assistant Director decided that he wanted to purchase
      silk neckties as a way to not only thank everyone but also as a
      way to help convey the agency’s mission with a specific agency
      logo. The neckties were a big hit and they ordered hundreds so
      that they could have them on hand to hand out to other federal,
      state and local personnel.
      Take Away: It is unclear whether the first purchase was
      appropriate, and the additional purchase of “hundreds” was
      definitely not appropriate. The initial purchase was arguably in
      the nature of an award, if the “thank you” was for a specific
      accomplishment or work performance. Again, we caution that
      such purchases and presentations should be done within the
      component’s awards program, and should be well-documented,
      especially those given to outside individuals. The purchase of
      “hundreds” to have on hand to give out is even more of an
      issue. It appears that these will just be “giveaways” to
      outsiders, which are not appropriate, in part because they
      cannot be justified as awards. To the extent they include the
      “logo” it still creates problems in that (a) they do not appear to
      be targeting a specific audience for the “message” and (b) they
      are not being fiscally prudent regarding the method to convey
      the logo.


                                      31

       In another subheading entitled “Recognition of Component Task Force
Activities (involving state and local personnel), JMD provided the following
example and commentary:

      Due to the important and successful recent Law Enforcement
      Mission called “Operation Redbud” the commander of the Task
      Force wanted to recognize state and local law enforcement
      personnel that had worked collaboratively with federal
      personnel to make [“]Operation Redbud” successful. Given that
      the efforts were effective and there was a need to continue close
      law enforcement information sharing, the commander wrote a
      justification requesting approval for the purchasing of pens and
      highlighters that included the name, phone number and web
      site that personnel could use for future collaborative efforts.
      Was this OK????
      Take Away: Given that the items to be purchased were of
      “nominal” value, coupled with the fact that there was a specific
      continuing message contained on the item/trinket, this was an
      appropriate purchase. In this case, the trinkets with a message
      serve a mission-related purpose by making the task force
      contacts known by giving the phone number, website, etc.
      These types of things can be purchased, but their dollar value
      should be conservative/appropriate and they should only be
      given to recipients that need to receive the message.

      In a third subheading entitled “Use of ‘Challenge Coins’,” JMD
provided the following hypothetical and commentary:

      One agency Director wanted to further the outreach and
      understanding of his organization involved in law enforcement
      activities to federal, state and local personnel that they dealt
      with on a regular daily basis. The Director designed a coin with
      a specific logo for his organization, included his personal name
      and phone number and sent the necessary procurement
      forward to purchase 500 of this type of coin. Within weeks, he
      had the stockpile of coins that he could give out to all personnel
      that contributed to helping further the outreach of his
      organization. Also, within a month, word has spread of these
      coins and every other Director decided to design a coin for
      his/her group. Any problems with this?
      Take Away: You have to ask, is this an “appropriate use” of
      government funds? Are the coins being given as awards? If so
      the purchase and recipients should be documented and the
      accomplishment/performance should be described. Is the
      inclusion of the Director’s name and phone number being given

                                     32

      as a message? Is there a reason the recipients need this
      information? It also concerns us that the personal phone
      number is being used; such items should not contain such
      personal information, so if there is a message here it should be
      conveyed in another way. To the extent that these are being
      given to outside individuals as a goodwill gesture, it might be
      appropriate to use the [Representation] Fund – this should be
      discussed with the Director’s office. If the coins are not awards
      or message-conveyors and [Representation] Funds are not being
      used then they are not permissible and should not be given as
      mere motivational items or morale boosters.

       The contractor who was responsible for ordering the IOD promotional
items and attended the seminar in October, 2010, told us that the message
he took from the training was that IOD’s spending was “out of hand” and
that it was going to “cease.”

            2.	   Suspension of USMS Promotional Items Purchases

       On January 21, 2011, the Attorney General issued a directive to all
Department components to reduce expenditures to only mission-essential
programs, projects and activities. In a June 17, 2011, e-mail sent to all
USMS management, in which he referenced Attorney General Holder’s
directive, USMS Chief Financial Officer Albert Hemphill stated that USMS
was developing a promotional items policy and that “all expenditures for
promotional items…[were] suspended pending issuance of a formal policy.”
According to witnesses, since the issuance of this directive from Hemphill,
all promotional items purchases by IOD employees have, in fact, stopped.

            3.	   The Department’s Issuance of Policies and Guidance
                  Regarding the Purchase of Promotional Items

       On October 5, 2011, the Deputy Attorney General issued a
memorandum entitled “Continued Restrictions on Non-Essential Spending.”
Through this memorandum, the Department directed all of its components
to “[s]uspend purchases of all trinkets, including logo-supplies, logo-
portfolios, ‘message-related’ items, clothing, etc., until further notice…”.

      On August 12, 2011, the JMD issued Financial Management Policies
and Procedures Bulletin No. 11-04 (FMPPB 11-04), entitled “Restrictions on
Using Department of Justice Funds to Purchase Trinkets” (the “JMD Trinket
Policy”). The JMD policy defined a “trinket” as “an item of nominal value
such as a hat, mug, t-shirt or coin.” Furthermore, FMPPB 11-04 explicitly
stated that Department agencies and components “may not use Department
funds to purchase trinkets to be distributed to Department employees



                                     33

and/or members of the public,” unless the purchase qualifies under one of
four exceptions. 57

       The Department issued DOJ Policy Statement 1400.01 “Planning,
Approving, Attending and Reporting Conferences,” on June 7, 2012. 58 This
policy statement explicitly states that “[t]rinkets (items such as hats, mugs,
portfolios, t-shirts, coins, etc., regardless of whether they include the
component or conference name or logo) must not be purchased as
giveaways for conferences.” 59 DOJ Policy Statement 1400.01 permits DOJ
components to purchase trinkets for the purpose of giving them away to
“individuals outside of the Department,” but only when the trinkets are paid
for with R & R funds.

       The Department issued Policy Statement 1400.02 on January 30,
2013, and implemented it Department-wide on February 4, 2013. 60 This
Policy Statement replaces FMPPB 11-04. While DOJ Policy Statement
1400.02 adopts FMPPB 11-04’s definition of a “trinket,” it eliminates the
four exceptions and further restricts Department components’ authorities to
purchase trinkets and commemorative items.

       In particular, DOJ Policy Statement 1400.02 permits Department
components to give commemorative items, such as framed certificates or
plaques, as honorary awards to employees, but only if the award is given
within the components’ guidelines or policies. It also allows components to
give “honorary award items of nominal value (commemorative items or
trinkets as appropriate) to individuals outside of the Department who have
provided a service” to the component. However, Policy Statement 1400.02
states, with a minor exception, that such honorary awards “must not cost
more than $100.” 61




        57 The four exceptions were: (i) Trinkets to be given as awards pursuant to an

established component awards program; (ii) Trinkets used to convey a message necessary
to accomplish the component’s mission; (iii) Trinkets purchased using Representation
Funds; or (iv)Trinkets purchased pursuant to a component’s specific statutory authority
allowing for such purchases.
       58   DOJ Policy Statement 1400.01 is attached as Appendix D to this report.
       59 DOJ Policy Statement 1400.01 also states that “[b]asic supplies that are
necessary for use during the conference (e.g., pens, paper, nametags) may be purchased.”
       60   DOJ Policy Statement 1400.02 is attached as Appendix E to this report.
       61 DOJ Policy Statement 1400.02 allows honorary awards to exceed the $100 limit
only when the award is being given in conjunction with Department- or Component-level
awards ceremonies or a Component Head or Principal Deputy has approved the purchase
of an item exceeding $100.


                                             34

      Furthermore, Department components are permitted to purchase
commemorative items and trinkets to promote goodwill towards the
Department, its components and their missions. However, DOJ Policy
Statement 1400.02 requires DOJ components to use their R & R funds
when doing so, in accordance with DOJ Order 2110.31B. 62

       DOJ Policy Statement 1400.02 also requires Department components
to establish adequate internal controls for the purposes of documenting and
monitoring the purchase and distribution of trinkets and ensuring that the
restrictions on using Department funds to purchase trinkets are followed.
To this end, DOJ Policy Statement 1400.02 requires each component to
include trinket purchases in the Department’s existing internal control
process conducted under Office of Management and Budget Circular A-123,
“Management’s Responsibility for Internal Control.” 63

       DOJ Policy Statement 1400.02 specifically allows components to
develop their own policies regarding the use of Department funds to
purchase trinkets. Component policies must not conflict with the DOJ
Policy Statement, but may be more restrictive.

                4.     USMS Policy Directive 1.2

       On October 5, 2011, the same day that the Deputy Attorney General
issued the memorandum entitled “Continued Restrictions on Non-Essential
Spending,” USMS Director Stacia A. Hylton authorized and approved USMS
Policy Directive 1.2. 64 The USMS policy addresses two categories of items:
“Promotional Items” and “Ceremonial Items.”

       The USMS policy defines “Promotional Items” as:

       Low-cost items available for purchase containing USMS insignia
       (seal, badge, logo, name, etc.) to be given to either USMS
       employees or non-USMS employees for promotional purposes.

       62   DOJ Order 2110.31B is discussed in Section III.D of this report.
       63   OMB Circular A-123 requires “[a]gencies and individual Federal managers [to]
take systematic and proactive measures to (i) develop and implement appropriate, cost-
effective internal control for results-oriented management; (ii) assess the adequacy of
internal control in Federal programs and operations; (iii) separately assess and document
internal control over financial reporting … (iv) identify needed improvements; (v) take
corresponding corrective action; and (vi) report annually on internal control through
management assurance statements.” Memorandum from Executive Office of the President,
Office of Management and Budget to the Heads of Executive Departments and
Establishments (December 21, 2004) (available at
http://www.whitehouse.gov/omb/circulars_a123_rev).
       64   The USMS policy is attached as Appendix C to this report.


                                              35

      Only the following types of promotional items may be purchased
      with USMS workplan funds: hats/caps, pins, coins, pens,
      pencils, t-shirts, key chains, business card holders, mouse
      pads, notepads, patches, drinking glasses or mugs,
      paperweights, tin badges, lapel pins, tablet portfolios, and
      stickers.

      The USMS policy states that “Promotional Items” may be purchased
and distributed for the following specific reasons:

      a.    As recognition to employees and others 1) for “contributions or
            services to the USMS,” or 2) for “participation/performance” at
            USMS conferences or training events;

      b.    As necessary to accomplish recruitment objectives;

      c.    By the Office of Public Affairs “as necessary to accomplish
            informational/promotional objectives;”

      d.    To make targeted audiences aware of a “specific
            program/initiative/priority of the USMS,” provided that the item
            contain the “specific message of the program being publicized;”
            and

      e.    To law enforcement officers from other agencies “to reciprocate
            receipt of similar items, and to foster and maintain cooperation
            and goodwill in the furtherance of the USMS operational
            mission.”

Additionally, the cost of promotional items “should be under $10 per item.”

      The policy defines “Ceremonial Items” as:

      Plaques, statues, embossed clothing items, and office items
      bearing USMS insignia that may be given to employees, retiring
      employees, state/local employees and retirees, visiting
      dignitaries and guests, and other non-employees in recognition
      of contributions or services performed for the USMS….
The policy states that the cost of ceremonial items should not exceed $150
per item, and states: “The intent of these items is for presentation in
appropriate ceremonies.”

      The new USMS policy also sets up internal procedures for the
purchase of items covered by the policy. Any USMS district or division must
submit a request and obtain approval to purchase the promotional items
(but not ceremonial items) from the Chief Financial Officer or designee
before making any such purchase. In addition, each USMS district, division
                                     36

or staff office “must assign an administrative employee to maintain a log of
the promotional and ceremonial items in inventory.” Any employee
authorized to distribute promotional or ceremonial items must provide
information to the administrative employee “indicating to whom they
presented the item, when, and for what purpose.”


VI.    Analysis and Recommendations

       We found that the growth in IOD’s expenditures on promotional items
during fiscal years 2005 to 2010 was excessive. As detailed in Figure 1,
spending on promotional items grew from $29,138.62 in fiscal year 2005 to
$313,193.46 in 2010; a 975 percent increase. By comparison, the USMS’s
budget increased from $800,000,000 in fiscal year 2005 to $1,174,000,000
in 2010; an increase of 46.75 percent. IOD’s spending on promotional items
far exceeded the USMS’s budgetary growth during the same period of time.

       The growth in spending on promotional items was the result of the
absence of internal controls, accountability, and good judgment. USMS’s
purchasing policies contributed to this uncontrolled growth because they
left the discretion to purchase promotional items with the branch offices,
where managers essentially, and, in some cases actually, rubber-stamped
the USM-157 requisition requests as “miscellaneous supplies” without
reference to any limitations on overall spending for promotional items. As
noted, there was no unique object class for promotional items that would
have facilitated any overall monitoring or control over purchases of this
type. The use of “micro purchasing” authority further facilitated this growth
in spending.

      In many instances, the spending was not allowable under Department
regulations or GAO guidance. The promotional items purchased by IOD, for
the most part, could not be considered to be “necessary expenses.” We
address several different categories of purchases of promotional items
below.

       Gifts Publicizing the USMS: Some of the promotional items
described in this report arguably had the purpose of publicizing the USMS
or conveying a message about a mission or program of the USMS. For
example, SOIB’s distribution of challenge coins in 2009 and the NY/NJ
RFTF’s dissemination of Manhunters promotional material arguably
promoted the Marshal Service. The guidance available to USMS personnel
prior to 2011 was ambiguous as to this category of gifts. The 1993 OGC
memorandum stated that items of this sort could be given to non-USMS
personnel provided they were of nominal cost and had no intrinsic value or
function other than publicizing the agency. However, we did not find that
this memorandum was widely disseminated within the USMS. Moreover, as

                                     37

noted above, the GAO subsequently held that gifts of this sort that act as
“favorable reminders” but do not convey essential information about the
agency are not permissible under the “necessary expense” doctrine. 65 In
general, the promotional items purchased by the USMS did not convey
essential information about the agency or its programs. Typically, the items
merely contained the logo of the USMS or one of its components.

       In some cases, the question of whether the expenditure would be
allowable under then-available guidance is difficult to answer. For example,
the SOIB spent almost $40,000 on challenge coins in 2010 to help promote
the newly established SOIB and build relationships with local law
enforcement, whose assistance was necessary in connection with the
implementation of the Adam Walsh Act. The coins arguably provided
information to the recipient that the SOIB existed and could act as a
reminder that the USMS and SOIB were available to assist local authorities
with unregistered sex offenders. However, the coins themselves did not
provide the recipients with specific information about the SOIB or its
activities apart from its name, and therefore might not have been considered
necessary expenses under GAO guidance.

       In 2011, after this investigation was initiated, the USMS provided
much-needed clarity to its employees on the circumstances under which
this type of expenditure is allowable. The 2011 USMS Policy Directive
permits the purchase of promotional items to make targeted audiences
aware of a “specific program/initiative/priority of the USMS,” provided that
the items contain the “specific message of the program being publicized.”
The SOIB challenge coins would not be deemed allowable under this policy
because they did not contain any specific message other than the fact that
the SOIB exists.

      Gifts Given To Promote Goodwill: Some of the promotional items
that IOD purchased, such as silk ties and scarves, were given as gifts to law
enforcement agents from other agencies, and to foreign dignitaries to
promote goodwill toward the USMS. As noted in the 1993 OGC
memorandum, such gifts may be made from the R & R fund. Under the
memorandum, this category was not limited to items “that have no intrinsic
value or function other than publicizing the agency,” and may thus include
items like scarves and neckties. Gifts of this nature are also authorized
under DOJ Order 2110.31B and the USMS Reception and Representation
Guidelines. However, gifts purchased under the R & R fund must be
authorized by the Director and are subject to strict control and
documentation procedures and to a very low ceiling of cumulative annual

       65 Matter of Expenditures by the Dept. of Veterans Affairs Medical Center, Oklahoma

City, OK, B-247563.3, (April 5, 1996).


                                            38

expenditures – $6,000 per year during 2005 to 2008 and in 2011, and
$30,000 per year in 2009 and 2010. The vast majority of the witnesses we
interviewed had never heard of the R & R fund.

       We found no evidence that any of the money spent on promotional
items as described in this report was deducted from the R & R fund. With
respect to scarves and neckties alone, if the USMS had charged the
purchases of these items against the R & R fund in 2008, the USMS would
have exceeded the statutory limit imposed by Congress by $1,340. We
believe that many other of the more expensive promotional items identified
in this report, such as business card cases and engraved cutting tools, were
also used to promote goodwill and therefore were subject to R & R fund
limitations. Items distributed by USMS employees for goodwill purposes
also include certain challenge coins, such as the 220th anniversary coin
and the America’s Most Wanted 1000th capture coin, and the Christmas
ornaments (to the extent they were given away to non-USMS personnel).

       Following the initiation of this review, JMD has acknowledged in its
training materials and in Bulletin No. 11-04 that expenditures for promoting
goodwill are subject to R & R fund requirements and limitations. (See
Sections D.1 and D.3 above.) However, the USMS Policy Directive 1.2
makes no reference to the R & R fund, despite authorizing gifts “to foster
and maintain cooperation and goodwill in the furtherance of the USMS
operational mission.”

       Gifts Given to Reciprocate Gifts from Others: Many witnesses told
us that they used promotional items such as challenge coins to reciprocate
similar gifts received from law enforcement officials in other agencies who
worked with the USMS. This sort of reciprocation has been a common
practice among law enforcement personnel for many years, and was
acknowledged in the 1993 OGC memorandum, which stated that
expenditures for this purpose “may be justified as essential to the mission
since the practice of exchanging these items is so widespread and the lack
of reciprocity would have an impact on mission success.” 66 However, as
noted above, the GAO has stated that gifts which are intended to promote
reciprocal respect, goodwill and cooperation between a federal agency and
its state or local level counterparts are not necessary expenses. 67 Moreover,
to the extent that purchases of this type are used to promote goodwill
between law enforcement agencies, they are arguably subject to R & R fund

     66 As discussed in Section III, above, we found no indication that the 1993 USMS

memorandum regarding promotional items was distributed within USMS.
      67 Matter of use of U.S. Army Criminal Investigation Command (USACIDC)

Appropriated Funds for Purchase of Marble paperweights and Walnut Plaques, B-184306, 55
Comp. Gen. 346, October 2, 1975.


                                          39

restrictions, discussed above. We also note that to the extent that the gifts
received from other law enforcement officials in exchange were retained as
the personal property of the USMS official who received them (which we
believe was commonly the case), the USMS purchase was effectively a
personal gift to the USMS employee who got something in return. Such
uses of appropriated funds are not permissible. 68

       We are skeptical that the elimination of the practice of funding the
routine exchange of promotional items will not likely undermine the ability
of the USMS to obtain the cooperation of other law enforcement agencies,
many of which presumably face the same budget issues challenging the
USMS. The tradition may be perpetuated, albeit likely in a more restrained
form, through private purchases by the USMS employees who routinely
participate in such exchanges and receive promotional items from others.

      In sum, although the use of promotional items for reciprocal
exchanges appears to have been a longstanding tradition in the law
enforcement community, there is little or no legal or policy support for using
appropriated funds for this purpose.

        JMD pronouncements in recent years have not supported the use of
appropriated funds for reciprocal exchanges. In JMD’s 2010 training
regarding promotional items, the JMD trainers wrote that “[t]o the extent
that [the challenge coins] are being given to outside individuals as a goodwill
gesture, it might be appropriate to use the [R & R] fund” and not treat such
expenditures as “necessary expenses.” Additionally, JMD’s Policies and
Procedures Bulletin No. 11-04, which is binding on USMS, states that
Department components, such as the USMS “may not use Department
funds to purchase trinkets to be distributed to… members of the public”
unless the purchase: (1) qualifies as an award given pursuant to an
established component award program; (2) conveys a message necessary to
accomplish the component’s mission; (3) is made using the R & R Fund; or
(4) is purchased pursuant to a component’s specific statutory authority.
Reciprocal exchanges do not fall within these categories.

      However, USMS Policy Directive 1.2, promulgated in October 2011,
authorizes the purchase of promotional items “to reciprocate [for the] receipt
of similar items, and to foster and maintain cooperation and goodwill in the
furtherance of the USMS operational mission.” We believe that USMS Policy
Directive 1.2 is inconsistent with a GAO decision holding that purchases to
enable such reciprocal exchanges are not “necessary expenses,” and with
JMD training materials and JMD’s Policies and Procedures Bulletin No. 11-


      68   GAO Red Book at 4-155.


                                      40

04, which state that such expenditures may only be made subject to the R
& R fund limitations and requirements.

       Awards: Witnesses told us that some promotional items, in particular
challenge coins, were distributed as informal awards to both USMS
employees and TFOs for USMS-related accomplishments. In particular, we
saw this type of activity in the NY/NJ RFTF, whose managers stated that
doing so was necessary because they could not award TFOs under the FEIA,
which only applied to federal employees. They told us that awarding
challenge coins or plaques was good for morale and incentivized the TFOs to
continue working diligently for the task force. The 1993 OGC memorandum
allowed for promotional items to be used for awards, so long as the
presentation was for a bona fide award for performance (and not merely
participation). While the 1993 OGC memorandum and USMS Policy
Directive 3.3 (establishing the USMS awards program) do not specifically
speak to awards for TFOs, we found that the NY/NJ RFTF practice of
awarding promotional items for performance to TFOs did not clearly violate
USMS policies in place at that time. However, because the task force did
not maintain records of the awards we were unable to determine if all of the
promotional items given by the NY/NJ RFTF to the TFOs were, in fact, bona
fide awards rather than gifts to promote goodwill.

      Gifts to Build Morale: Christmas ornaments, some challenge coins,
and other promotional items were given to USMS employees to promote
morale. As a general rule, appropriated funds may not be used to purchase
personal gifts for government employees. 69 Under the necessary expense
doctrine an agency may purchase items in the nature of gifts to employees
or non-employees, but only if there is a direct link between the items and
the agency’s purposes for which Congress has appropriated funding.
Assistant Chief Kellerman told us that the purpose behind giving the
Christmas ornaments to USMS employees was for offering a “word of
encouragement,” recognizing the “work done throughout the year,” and
improving morale. None of the reasons provided by Kellerman established
that such purchases were necessary expenses.

       Retirement and other Ceremonial Gifts: We found evidence of
incidents of spending within the IOD on ceremonial gifts, including crystal
statues costing an average of approximately $80 each and blankets costing
an average of approximately $33 each. These items appear to have been
used primarily as retirement gifts or gifts to dignitaries. Although the
cumulative budgetary impact from the purchase of retirement gifts was
relatively small, we believe that some retirement gifts, such as the lamb wool

       69 Matter of Christmas Gifts and Sweaters Distributed to Job Corps Participants by

the Forest Service, B-195247 (August 19, 1979), see also, GAO Red Book 4-155.


                                            41

blanket and custom box with the USMS seal, which cost $149, and the large
crystal statue, which cost $125, were excessive and that USMS personnel
should use better judgment and discretion when purchasing such items.

       Current Circumstances: Witnesses told us that notwithstanding the
issuance of the Department’s policies and guidance and USMS Policy
Directive 1.2, their branch of IOD has not resumed purchasing promotional
or ceremonial items. If such purchases are resumed, the Department’s
policies and guidance and USMS Policy Directive 1.2 will likely result in far
more restraint and have accountability in IOD and other components of the
USMS and the Department with respect to purchases of promotional items.
The Department’s policies and guidance are strong and clear statements of
principles which, if followed, will likely prevent abusive purchases of
promotional items in the future. They also require components to adopt
internal controls to document and monitor the purchase of promotional
items and to ensure compliance with the Policy.

       We believe that USMS Policy Directive 1.2 will also encourage
restraint and enhance accountability with respect to the purchase of
promotional and ceremonial items. However, we believe that the USMS
Directive is flawed in several respects and is inconsistent with some of the
Department’s policies. For instance, the USMS Policy authorizes gifts of
promotional items to employees and others for “participation/performance”
at USMS conferences or training events. However, providing trinkets for
participating in conferences is explicitly forbidden by DOJ Policy Directive
1400.01.

      In addition, the USMS Policy authorizes purchases of a special
category of promotional items for use by the USMS Office of Public Affairs
“as necessary to accomplish informational/promotional objectives.” This
authority appears to be very broad and to the extent that it does not require
that the informational or promotional message to be on the item, it may not
comply with current Department policies and GAO guidance.

       Lastly, the USMS Policy continues to authorize the purchase of items
for the express purpose of reciprocating similar gifts from other agencies
“and to foster and maintain cooperation and goodwill.” This authority is
problematic for the reasons discussed above. It contravenes DOJ Policy
Directive 1400.02 and GAO guidance on necessary expenses because it
authorizes expenditures for goodwill – which are subject to R & R fund
requirements and limitations – without a specific requirement that such
expenditures be made from the R & R fund.

       We acknowledge that the USMS Policy limits the cost of promotional
items to under $10, which is a modest amount per item. We note that a
very large proportion of the excessive expenditures for promotional items

                                     42

documented in this report were for items, such as challenge coins,
drinkware, and badges, that individually cost under $10. The excessive
expenditures were substantially attributable to the quantity of items
purchased rather than to the cost of the individual items. Therefore, we
believe that controls on the cumulative spending for promotional items are
particularly important.

       The 2011 USMS Policy Directive also provides some guidance as to
ceremonial items. In particular, it limits spending on ceremonial gifts to no
more than $150 and allows USMS managers to present such items to
“employees, retirees, federal officials, foreign officers, TFO, state/local
officers, and retirees of these organizations, and citizens” for the purpose of
recognizing them “at appropriate ceremonies” for “contributions or services
for the USMS.” However, this $150 limit is in conflict with DOJ Policy
Statement 1400.02’s $100 price limitation on ceremonial items.

       Policy Directive 1.2 requires its districts, divisions, and staff offices to
assign an administrative employee to maintain an inventory log of the
promotional and ceremonial items. Employees must also provide
information to the administrative employee maintaining the log that
indicates to whom they presented the item, when, and for what purpose.
Furthermore, managers “must reasonably” limit the distribution of
promotional items in their districts and divisions. We believe that Policy
Directive 1.2, if followed, will help USMS to adequately track the purchase,
distribution and use of promotional items.

      Recommendations:

       1.	   Prior to resuming the purchase of promotional items, the USMS
             should revise USMS Policy Directive 1.2 to be consistent with all
             Department policies and guidance; in particular DOJ Policy
             Directives 1400.01 and 1400.02, as well as R & R fund
             requirements and limitations.
       2.	   Prior to resuming the purchase of promotional items, the USMS
             should establish internal controls to document and monitor the
             purchase of promotional items and to ensure compliance with
             all Department policies and guidance and, when completed, the
             revised USMS Policy Directive 1.2. Such controls should
             include, but not be limited to, establishing a separate and
             unique object class code for promotional and ceremonial items.
       3.	   USMS should direct IOD and its branches to conduct a full
             inventory of promotional items currently on hand.




                                        43

APPENDIX A

                                                 · U.8. Department of Justice

                                                  United States Marshals Service

                                                  Qffice ofthe Director


                                                  Alexandria, Virginia 22301-1025



                                                    October 25,2013




MEMORANDUM TO:                Carol F. Ochoa
                              Assistant Inspector General
                                    RCiew
                              fO~V\rsiat and
               FROM:     ~<faA.HYl~
                           Director

            SUBJECT:          Response to OIG Draft Report: United States Marshals Service's
                              Use of Appropriated Funds to Purchase Promotional Items


       Thank you for the opportunity to comment on the subject draft audit report. We
appreciate the recommendations contained in the report and are confident that their
implementation will further the efforts we have already made to strengthen internal controls over
spending on promotional items.

        I have taken this matter very seriously since learning of this issue shortly after my
appointment as Director in 2011. In fact, an agency-wide moratorium was put in place in 2011,
along with a number of mitigating efforts. These efforts, taken early on in 2011, included:
drafting a policy; emphasizing messaging in Executive Staff Meetings and Quarterly National
Management Calls that stress the importance of Financial Integrity; including a block of
instruction in our Managers Training Conference August 2011 on Financial Integrity and a
presentation at that conference by the DOJ Controller on Promotional items; and finally,
establishing internal controls in 2011 immediately and concurrent with drafting policy. I am
committed to reinforcing those internal controls into the USMS review process that is addressed
in response to your recommendations with which we concur.

       Following the mitigating efforts we took early in 2011, we finalized and issued the
USMS Policy Directive 1.2. Subsequently in 2012, DOJ issued Policy Directive 1400.02, which
superseded USMS Policy Directive 1.2.
        Pursuant to DOJ's Policy Directive 1400.02, the only allowable promotional
expenditures, other than those that are part of the Director' s Award Ceremony, will be for USMS
employee award and retirement plaques not to exceed $100.00, nominal commemorative items
for guest speakers, and the use of Official Representation Funds (ORF) to purchase items
pursuant to DOJ Order 2110.31 B.

       From 2011 forward we have endeavored to ensure the previous behavior from 2005
through 2010 did not continue. This effort is proven in the review of our financial records which
show that in FY 2011 IOD spent less than $600 on "promotional and ceremonial" items and less
than $221 in FY 2012. Additionally we have incorporated a review of promotional item
purchases into our Compliance Review Program.

        We appreciate OIG's acknowledgement in the report that the use of promotional items to
reciprocate similar gifts received from law enforcement partners has been a common practice
among law enforcement personnel for many years, with the intended purpose of solidifying
partner relationships and promoting goodwill.

       Please find attached our responses to the report's recommendations. Should you have
any questions, please contact Michael J. Prout, Assistant Director, Office of Inspection,
202-307-9523.

Attachments

cc: 	   Richard Theis
        Director, Audit Liaison Group
        Internal Review and Evaluation Office
        Justice Management Division

        Andrew Barker, Assistant Chief Inspector 

        External Audit Liaison Team Leader 

        United States Marshals Service 


        Melinda Morgan, Director 

        JMD Finance Staff 

                                                                                                                                                                


                           USMS Response to OIG Draft Report 

       A Review of the USMS’s Use of Appropriated Funds to Purchase Promotional Items 



Recommendation 1: Prior to resuming the purchase of promotional items, the USMS
should revise USMS Policy Directive 1.2 to be consistent with all Department policies and
guidance, in particular DOJ Policy Directives 1400.01 and 1400.02, as well as R & R fund
requirements and limitations.

Response (Concur): USMS Directive 1.2 was superseded by DOJ Order 1400.02 dated
January 30, 2013. Under DOJ Order 1400.02, promotional and ceremonial items are limited to
honorary awards such as plaques, purchases pursuant to a compelling mission need approved by
the Assistant Attorney General for Administration, and purchases with reception and
representation funds. The USMS has been governed and limited by DOJ Order 1400.02 since its
issuance. A new USMS Directive re-iterating the requirements and restrictions of DOJ Order
1400.02 will be formally issued to assure full notice and dissemination. The updated USMS
Directive will be finalized and signed by November 30, 2013, and a copy will be provided to
OIG at that time.

Recommendation 2: Prior to resuming the purchase of promotional items, the USMS
should establish internal controls to document and monitor the purchase of promotional
items and to ensure compliance with all Department policies and guidance and, when
completed, the revised USMS Policy Directive 1.2. Such controls should include, but not
be limited to, establishing a separate and unique object class code for promotional and
ceremonial items.

Response (Concur): In 2011 the USMS implemented tighter controls which suspended
expenditures for promotional items and provided that only the Chief Financial Officer (CFO), in
consultation with the Office of General Counsel, could approve ceremonial items such as
plaques. This was in line with the Attorney General’s message that all Department components
reduce expenditures to only mission essential programs, projects, and activities. Since then, the
USMS was aware of and further considered additional guidance from the Department in the form
of Policy Statements and memorandums from the Deputy Attorney General (DAG) and Attorney
General (AG), when providing guidance to their Districts and Divisions. These included:

February 4, 2013, DAG memorandum entitled “Updating Restrictions on Commemorative Items
and Trinkets” – The memorandum clarifies prior AG and DAG memorandums based on the
issuance of the DOJ Policy Statement 1400.02.

January 30, 2013, DOJ Policy Statement 1400.02 “Restricted Use of Department Funds to
Purchase Commemorative Items and Trinkets.”

November 16, 2012, AG Memo entitled “Continued Freeze of Hiring and Non-Essential
Spending/Exemption Process Modification” – The memorandum stated, “You must completely
suspend trinket and commemorative item spending.”
                                                                                                                                                                


June 7, 2012, DOJ Policy Statement 1400.01 “Planning, Approving, Attending and Reporting
Conferences,” Section II.I. Trinkets, states, “Trinkets (items such as hats, mugs, portfolios, t-
shirts, coins, etc., regardless of whether they include the component or conference name or logo)
must not be purchased as giveaways for conferences.”

October 5, 2011, DAG memorandum entitled, “Continued Restrictions on Non-Essential
Spending” – The memorandum states “…Suspend purchases of all non-essential spending” – and
further states “…Suspend purchases of all trinkets, including logo-supplies, log portfolios,
“message-related” items, clothing, etc., until further notice (this applies to conference related
purchases and those that are not associated with a conference).”

The USMS has been committed to following all guidance issued by the Department, including
the requirements outlined in DOJ Policy Statement 1400.02 which were implemented at the
beginning of the calendar year. Commemorative items purchased by the USMS consist
primarily of retirement plaques for departing USMS employees for an amount not to exceed
$100, with approval by the CFO. The approval is required to be kept on file by the requestor.

The additional controls and guidance put in place, as well as training provided by the USMS and
the Department, appear to be working. The USMS has noted a sharp decline in this type of
spending. Updated financial reports specifically from the IOD indicate that in FY 2011, the
Division spent less than $600 on these types of items, and in FY 2012 spent less than $221.

To further tighten these controls, the USMS will request a sub-object class (SOC) spending code
in the Department-wide accounting system, the Unified Financial Management System (UFMS),
for purchase of “promotional and ceremonial” items from the Justice Management Division
(JMD). This request will be made formally to JMD as soon as the currently ongoing upgrade to
UFMS is complete.

Recommendation 3: USMS should direct IOD and its branches to conduct a full inventory
of promotional items currently on hand.

Response (Concur): USMS Policy Directive 1.2 requires recordkeeping and an inventory of
promotional items. The inventory and recordkeeping requirement was tested as part of the
Compliance Review Program in nine districts and two divisions in FY13. Additionally, key
processes regarding the inventory and records keeping requirement have been added to the FY14
Self-Assessment Guide (SAG), which must be completed by districts and divisions in the first
half of FY14. The SAG is an effective management tool that is used by the agency to ensure
compliance with policy and procedures.

Every component of IOD, including regional fugitive task forces, regional Technical Operations
Group field offices, and all other offices located in the field, have been asked to provide their
current inventory of promotional items. The inventories will be compiled and delivered to OIG
within two weeks.
APPENDIX B

'e·
  ·
  ..
. .
  ·1' .
          .'
               .                              u.s. Department of Justice
                                              United States Marshals Service



                                              6CJO .4nrr, NflV} Drift!
                                              Arl/IfrtDn.   VA 222024210
January 26, 1993

               .'..'
                       MEMORANDUM
                       TO: 	   Kathy Deoudes
                               Executive Assistant for
                                 Policy and Communications
                       FROM: 	 Janice M. ROdger~\\~
                               Senior Associate General Counsel
     The following is a discussion and advice concerning the
purchase by the U.S.     Marshals Service (USMS) I of so-called
"trinkets," or promotional items such as T-shirts, caps, mugs, cuff
links, lapel pins, etc.
Backaround
     In the past the USMS has purchased the types of items noted
above for several uses.    Some are given to officials of state,
local and foreign law enforcement organizations.    Some are given
to USMS personnel, some to personnel in other federal agencies, and
some to general visitors to USMS headquarters ,! occasionally
including family members of USMS personnel. When the Enforcement
Division undertakes a special operation such as Opejration Sunrise
or Gunsmoke, they order a T-shirt and cap for each employee .
participant, USMS and non-USMS (they usually have a special logo
done for the operation). If the participants want aq.di tional pants
or shirts for themselves, they order and pay for t~em personally.
In addition, by Red Stripe dated May 17, 1991, the USMS authorized
the districts to purchase certain items in connection with the FIT
program. .
     There is little existing guidance for t e authorized
                                                                           l
distribution of these items.      The purchasing haE1 been handled
primarily by the Office of Policy and Communications (OPC). This
office also organizes the USMS annual award ceremony and purchases
award plaques and - similar items for the USMS.                            I
     It appears that almost all purchases of this nature are made
by ope on a case by case basis or under the Blanket Purchase
Agreements (BPA) in effect with specific vendors.J In addition,
similar purchases are made by other offices. It i also possible
that U.S. Marshals are making small purcha.ses of this nature at the
district level.
                                               1
summary
     In the USMS, the available appropriations for purchases of
these types of items are the general salary and expense amount, or
from the Director's reception and representation fund.      There is
no specific provision or limitation within the USMS appropriations
which addresses these purchases.      Therefore, theyl must be made
consi,stent wi th general appropriations and spending principles but
there 'is no predetermined limit. Certain purchases, if made, must
be made from the reception and representation fundi others may be
made under authority to make awards to employees and private
persons;--others must be justified as essential to the mission of
the USMS.                                             I

Leaal Authoritv                                      I
      The basic statutory requirement is that "[a]ppropriations •
       would be applied only to the objects for which the
appropriations were made except as otherwise provided by law." 31
U.S.C. § 1301(a). The Comptroller General has interpreted this as
meaning that "appropriated funds may be used for objects not
specifically set forth in an appropriation act only if there is a
direct connection between such objects and the purpose for which
the appropriation was made, and if the object is essential to the
carrying out of such purposes." 55 Compo Gen. 346 (1975).
     The general rule is that appropriated funds may not be used
to purchase personal gifts without specific statutory authority.
For example, in 54 Camp. Gen. 976 (1975), the Compt'r oller General
held that decorative key rings given to those atte~ding a seminar
sponsored by the U.S. Forest Service could not be purchased with
appropriated funds since they were personal gifts. The Comptroller
General has issued similar ruli~gs regarding caps in B-201448;'
February 25, 1981; novelty plastic garbage cans in~57 Compo Gen.
385 (1978); jackets and sweaters in B~195247, August 29,1978); and
paperweights in 55 Compo "Gen. 346 (1975).   No dist! ction is made
between gifts to employees and gifts to non-emplOyer S,
     Employee Awards
     While there is no authority to purchase personal gifts, there
is authority to purchase similar items where they I are bona fide
awards to employees. "Awards" given for participation rather than
performance are not bona fide awards. However, group awards based
on group perfor.mance are appropriate.             I



     The FPM, Chapter 451, Incentive Awards, authorizes agencies
to give awards to employees and specifically a"lithorizes non­
monetary awards. The award itself as well as publicity about the
awards program is important to the overal~ goals of the incentive
awards program,' which is to motivate employees to increase
                                 2
productivity    and creativity by rewarding their efforts which
benefit the    government.   Informal, or on-the-spot awards, to
recognize an   exceptionally good job on a particular project, for
example, are   encouraged as well as more formal types of awards.
                                                          I

      An upcoming revision of the Federal Personnel Manual (FPM),
Chapter 451, will provide agencies guidance on granting merchandise
awards.   OPM is encouraging agencies to make full, creative, and
effec.t~ve use of non-monetary awards authority.  Such non-monetary
awards must be items of an honorary nature that can be worn,
displayed, or used in a work environment. Items should have the
agency's seal or logo. Such awards could include emblems, picture
frames, ~ocks, coffee mugs, paperweights, desk sets, small vinyl
tablet portfolios, or similar items that meet I the agency's
recognition needs,    T-shirts would also be acceptable.   A basic
principle that agencies should use in selecting these items is that
their primary value should be as an award and not an object with
monetary value.
     This type of informal award may be given to USMS and non-USMS
federal employees or other law enforcement agencies l However, we
emphasize that the award must be given fox performance actually
rendered, not as an incentive prior to such performance.
     }{Warra~~'-Wi'Vtre~"··ert"f'~en~
                 .......-~..,t -,._~~ · 





                                                                         "




        If an item is not given as an award, there are ~wo rationales
to support such purchases. The first is a non-persdnal item which
p'ub1ici!i1.S§. :tMAQM.£% gr A TilartM;ula r prOgram. The li tems used for
1fl1.s purpose should be !lOn-flm$Ltion~ ,iJ;~M~that haVje no intrinsic
      9


value other than as publicity !or ~e agenoy or program. Clearly
these would be low cost items. Buttons, patches, pens, pencils and
inexpensive lapel pins fit this category.            These 'Iitems are not
personal in nature and therefore are not ."qifts". There are no
cases directly on this point, but this seems to be part of OPH's
rationale in the upcoming guidance noted above which IOPM will issue
authorizing similar "non-functional" items for employee awards.
Therefore, since these items are not "qifts," they could be given
out more freely to both employees and non-employees.
     Clearly, the circumstances will determine the appropriateness
of giving away these items. Providing them at a recruiting event
bears a direct relationship to the recruiting funct ~ on. Providing
                                            3
  them to an audience with little or no interest with or connection
  to the USMS·would be more questionable.
      The second justification for using appropriated funds is if
 "there is a direct connection between the object and the purpose
 for which the appropriation was made, and if the object is
 essential to the carrying out of such purposes." 55 Camp. Gen. 346
 (1975). In our case, the Operations Directorate states that giving
 out caps, patches, cuff links and coffee mugs to state, local,
 foreign and other federal law enforcement officials is an integral
 part of .obtaining the cooperation and assistance of these
 officials. The practice of giving (and receiving) these items from
 law enf~rcement counterparts is widespread.          According to
 Operations personnel, it is essential to securing the added effort
 which often makes the difference in a successful operation.

          The Comptroller General has ruled that "gifts" to individuals
 who      are required to assist the USMS as part of their job
    responsibilities,:caDnot be justified on these grounds.           S3 Compo
    Gen. 770 (1974).          Therefore, in the case of other federal
    officials, who are required to cooperate with the USMS in mi6sion­
    related functions, giving gifts presents a problem, although the
    non- functional items such as patches and lapel pins may be
    justified on publicity grounds.            Presenting state, local and
  .~ foreign officials with caps, T-shirts, mugs, e~c. may be justified
 f as essential to the mission since the practice of exchanging these
; items is so widespread and the lack of reciprocity would have an
f impact on mission success.             However, this justification is
'-- extremely restricted and shoul.sL....n9.t.......P~..JUed_ to support larqe
    E~a~§3.. Allt......;sbou}q be carefully .l!!2l   :9Jed~ ensure that such
    purch.ases are 1.n fact essential.        I t ~s adv~sable tlla t certain

                                                             1
    speci'lf"c' reems De Iaentified as appropriate for this purpose and
    that no other items be purchased.
 Reception and Representation Funds

      Agencies may utilize official reception and       epresentation
 funds to purchase gifts in some instances. The USMS I currently has
 specific appropriation per year for reception and representation
 purposes. The Director may authorize funds from this l appropriation
 for gifts in fulfilling his representation duties.        Therefore,
 gifts to non-governmental persons that are not bona fide awards as
 discussed above, may properly be purchased using these funds.
 Conclusion and Recommendation                                I
      Based on the foregoing, we advise that purchases be made
 consistent with the following criteria.    These criteria are
 supportable under decisions of the Comptroller General and the
 guidance of OPM.



                                       4

I.   Awards to employees
     USMS 	 management is authorized to purchase traditional awards
     (plaques, medallions in lucite, etc.) as weI ll as emblems,
     picture frames, clocks, coffee mugs, desk sets; T-shirts,
     paperweights, vinyl tablet portfolios, or similar items that
     meet 	the agency's recognition needs, to present to employees
     as bona ~ awards for their performance.        (Perfor.mance is
     distinct from mere participation, for which no authority
     exists to make awards).
II. 	 "Gifts" to Non-USMS persons
     A. 	   Items of nominal cost that have no intri~sic value or
            function other than publicizing the agency, may be given
            to non-USMS personnel.    Allowable items are buttons,
            patches, lapel pins, sticker badges, pens and pencils.
     B. 	   Gifts to non-federal personnel other than the items noted
            in II.A above may be made by the Director from the
            reception and representation fund.
     C. 	   Gifts to non-federal government persons may be made where
            essential to the mission of the agency. Allowable items
            are   caps,   T-shirts,    (inexpensive)    cuff   links,
            (inexpensive) paperweights, mugs and items in II.A above.
Higher cost items should be carefully scrutinized and generally not
permitted.
     We recommend that the requesting office documeh t the use of
any of these items at the time of purchase or Idistribution.
Especially with category II. C (Gifts to non-federal ~loyees) the
justification must adequately support a deter.mination! that the gift
is essential to the mission of the agency.     Please i feel free to
seek specific advice on items that do not appear to i it within the
above criteria.




                                  5

APPENDIX C

Untitled 1	                                                                                                        Page 1 of 2



 Directives Home Page >> Topics >> General Management




                                                                                         OFFICE OF GENERAL
 COUNSEL

 1.2 EXPENDITURES FOR PROMOTIONAL AND CEREMONIAL ITEMS

 A.	     Proponent: Office of General Counsel (OGC), Telephone: 202-307-9054, Fax: 202-307-9456.

 B.	     Purpose: This policy directive establishes policies and procedures for the United States Marshals Service
         (USMS) concerning expenditures for promotional and ceremonial items for USMS employees and non-
         USMS employees.

 C.     Authority: The Director’s authority to supervise the USMS and issue written directives is set forth in 31 USC
 1301(a).

 D.	     Policy:

          1.	      Promotional Items: Promotional items may only be purchased for the specific purposes and
                   circumstances described below:

                   a.	     Recognition:

                            1)      USMS managers may give promotional items as recognition to employees, retirees,
                                    federal officials, foreign officers, task force officers (TFOs), state/local officers, and
                                    citizens for contributions or services to the USMS.

                            2)      Promotional items may be given to attendees at USMS conferences/training for
                                    participation/performance in the conferences/training. This includes conferences
                                    which the USMS attends as a sponsor, exhibitor, or presenter.

                   b.	     Recruitment: The Human Resource Division (HRD), Office of Equal Employment
                           Opportunity (EEO), and district offices may give promotional items containing specific
                           recruitment-related messages as necessary to accomplish recruitment objectives.

                   c.	     Public Affairs: The Office of Public Affairs (OPA) may give promotional items as necessary
                           to accomplish informational/promotional objectives.

                   d.	    Targeted Audiences: USMS managers may give a targeted audience promotional items to
                           make the chosen audience aware of a specific program/initiative/priority of the USMS to “get
                           out the message” in furtherance of the USMS mission. The items must contain the specific
                           message of the program being publicized. Targeted audience designs and messages must
                           be approved by the Deputy Director or designee, with OGC concurrence.
                   e. 	    Furtherance of Law Enforcement Relations:
                           1)      Promotional items may be given to state/local law enforcement officers (LEOs) and
                                   other federal LEOs for exchange to further law enforcement objectives. The
                                   objective of giving such items is to reciprocate receipt of similar items, and to foster
                                   and maintain cooperation and goodwill in the furtherance of the USMS operational
                                   mission.
                           2)	     Promotional items may not be exchanged among employees within the USMS.
          2.	      Ceremonial Items: Ceremonial items bearing USMS insignia may be purchased only for the specific
                   purposes and circumstances described below. Prior approval for such purchases must be obtained
                   from the Chief Financial Officer (CFO) or designee, in consultation with OGC.
                   a. 	   Ceremonial Recognition:




mhtml:file://C:\Users\dberthi\AppData\Local\Microsoft\Windows\Temporary Internet File... 9/25/2013

Untitled 1	                                                                                                  Page 2 of 2



                         USMS managers may present ceremonial items as recognition to employees, retirees,
                         federal officials, foreign officers, TFOs, state/local officers, and retirees of these
                         organizations, and citizens as recognition at a public ceremony for contributions to the
                         USMS.
 E.	    Procedures:
        1.         Purchase of Promotional Items:
                 a.	      Districts or divisions wishing to purchase promotional items must submit a request for
                          approval to the CFO or designee before such purchases may be made. The request must
                          include the nature of the item(s) to be purchased, the quantity of each item to be purchased,
                          the purpose for each such purchase, and the total cost. Approval of requests is made by the
                          CFO taking into account the propriety of the purchase(s), consistent with this policy, the
                          current budget situation of the Agency, and prior approvals for the requesting office. If
                          approved, the CFO provides an allocation of funds to the district/division for purchase of
                          specifically-approved items.
                 b.	      The costs of unauthorized purchases outside these guidelines are the personal responsibility
                          of the authorizing official. Authorizing officials may not purchase promotional items for
                          personal use or personal distribution.
                 c.	     The cost of promotional items should be under $10 per item. If a district/division would like to
                          purchase any other type of low-cost promotional item not included in the list contained in F.2,
                          below, approval is required from OPA, in consultation with OGC.
        2.	     Records Keeping: Districts, divisions, and staff offices must assign an administrative employee to
                 maintain a log of the promotional and ceremonial items in inventory. Employees authorized to give
                 promotional and ceremonial items must provide information to the administrative employee
                 maintaining the log, indicating to whom they presented the item, when, and for what purpose.
                 Districts and divisions must reasonably limit the number of items distributed for the purposes
                 described in this policy.
 F.	    Definitions:

        1.	     Ceremonial Items: Plaques, statues, embossed clothing items, and office items bearing USMS
                insignia that may be given to employees, retiring employees, state/local employees and retirees,
                visiting dignitaries and guests, and other non-employees in recognition of contributions or services
                performed for the USMS. Items other than those listed above must be approved by the Deputy
                Director or designee, with OGC concurrence. The cost should not exceed $150 per item. The intent
                of these items is for presentation in appropriate ceremonies.

        2.	     Promotional Items: Low-cost items available for purchase containing USMS insignia (seal, badge,
                logo, name, etc.) to be given to either USMS employees or non-USMS employees for promotional
                purposes. Only the following types of promotional items may be purchased with USMS workplan
                funds: hats/caps, pins, coins, pens, pencils, t-shirts, key chains, business card holders, mouse pads,
                notepads, patches, drinking glasses or mugs, paperweights, tin badges, lapel pins, tablet portfolios,
                and stickers.

 G.	    Cancellation Clause: This is a new USMS policy directive and remains in effect until cancelled or
        superseded.
 H.	    Authorization and Date of Approval:
        By Order of:                        Effective Date:
                /S/ 	                          10/5/11
        Stacia A. Hylton
        Director
        U.S. Marshals Service




mhtml:file://C:\Users\dberthi\AppData\Local\Microsoft\Windows\Temporary Internet File... 9/25/2013

APPENDIX D

                                                                               Attachment 4
     U.S. Department of Justice                                           1400.01
                                                                              JUNE 2012            

DOJ POLICY STATEMENT


         PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES



PURPOSE:           This Policy provides Department of Justice (Department or DOJ) guidance
                   on planning, approving, attending and reporting conferences. In addition, it
                   implements the requirements of the Office of Management and Budget
                   (OMB) memorandum M-11-35, titled Eliminating Excess Conference
                   Spending and Promoting Efficiency in Government, dated September 21,
                   2011, and OMB Memorandum M-12-12, Promoting Efficient Spending to
                   Support Agency Operations, dated May 11, 2012, which remind agencies
                   that they must operate with the utmost efficiency and eliminate unnecessary
                   or wasteful spending.

SCOPE:             This Policy applies to all Department Components and extends to
                   conferences held by contractors and cooperative agreement recipients using
                   Department funding. This policy does not apply to conferences funded by
                   Federal grantees using Federal grant funds.

ORIGINATOR:        Justice Management Division (JMD), Finance Staff (FS)

CATEGORY:          (I) Administration, (II) Financial Management and Accounting

AUTHORITY:         a)   5 U.S.C. § 4101(6), Definitions, Non-Government Facility
                   b)   31 U.S.C. § 3302, Custodians of Money (“Miscellaneous Receipts Act”)
                   c)   31 U.S.C. § 6305, Using Cooperative Agreements
                   d)   Department of Justice Appropriations Act, 2012 (Title II, Division B,
                        Public Law 112-55)
                   e)   The Violence Against Women and Department of Justice
                        Reauthorization Act of 2005 (Public Law 109-162)
                   f)   Federal Travel Regulation (FTR), 41 C.F.R. § 300-3.1 and
                        § 301-74
                   g)   Uniform Administrative Requirements for Grants and Cooperative
                        Agreements with Non-Profit Organizations (28 C.F.R. part 70)
                   h)   Federal Acquisition Regulation (FAR), Volume 1, Part 10
                        Office of Management and Budget (OMB) Cost Principles Circular
                        A-122, 2 C.F.R. 230
                   i)   Office of Justice Programs Financial Guide
                   j)   Office on Violence Against Women Financial Guide
                   k)   OMB Circulars A-21, "Cost Principles for Educational Institutions" (2
                        C.F.R. part 220); A-87, "Cost Principles for State, Local and Indian
                                                                                Attachment 4
                                                               DO) 1400.01
         PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

                      Tribal Governments" (2 C.F.R. part 225); and A-I22, "Cost Principles
                      for Non-Profit Organizations" (2 C.F.R. part 230)
                  I) OMB Circular A-123, Management's Responsibility for Internal Control
                  01) OMB Memorandum M-II-35, Eliminating Excess Conference Spending
                      and Promoting Efficiency in Governmenl, September 21 , 2011
                  n) OMB Memorandum M-12-12, Promoting Efficient Spending to Support
                      Agency Operations, May 11, 2012

CANCELLATION:     a) 	 Financial Management Policies and Procedures Bulletin 08-08,
                       Conference Planning, Conference Reporting, and Approvals to Use Non­
                       federal Facilities
                  b) 	 Financial Management Policies and Procedures Bulletin 00-10, 

                       Conference Travel 


DISTRIBUTION:     This Department Policy Statement is distributed electronically to all 

                  components as well as posted to the 001 Directives website: 

                  http://dojnet.doj .gov/dojorders/ . 


ACTION LOG:       Maintained in the Appendix.



APPROVED BY:
                '--"rY>...e~
                  Meli,{daMorgon
                                J     ~               "-­
                                                   ") 

                  Director 

                  JMD Finance Staff




                                                                                     Page 2of33
                                                                            Attachment 4
                                                                               DOJ 1400.01
                        PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

Contents

I.        POLICY DEFINITIONS.............................................................................................................................. 5

     A.      Conference. ................................................................................................................................................. 5 

     B.      Conference Exemptions. ............................................................................................................................. 5 

     C.      Department-Sponsored Conference. ........................................................................................................... 7 

     D.      Non-Department-Sponsored Conference. ................................................................................................... 7 

     E.      Predominantly Internal Conference. ........................................................................................................... 7 

     F.      External Conference Planner. ...................................................................................................................... 8 

     G.      Conference Trainer/Instructor/Presenter/Facilitator.................................................................................... 8 

     H.      Federal Facility............................................................................................................................................ 8 

     I.      Non-Federal Facility. .................................................................................................................................. 8 

     J.      Cooperative Agreement............................................................................................................................... 8 


II. POLICY FOR DEPARTMENT-SPONSORED CONFERENCES. ......................................................... 9

     A.      Necessity and Fiscal Prudence Written Justification. ................................................................................. 9 

     B.      Interaction with Entities Doing Business with the Department. ................................................................. 9 

     C.      Location..................................................................................................................................................... 10 

     D.      Charging Conference Fees. ....................................................................................................................... 11 

     E.      Use of External Conference Planners........................................................................................................ 11 

     F.      Conference Space and Audio-visual Equipment and Services.................................................................. 12 

     G.      Food and Beverages. ................................................................................................................................. 12 

     H.      Entertainment. ........................................................................................................................................... 14 

     I.      Trinkets. .................................................................................................................................................... 14 

     J.      Requirements that Apply to Cooperative Agreement Recipients.............................................................. 15 


III.         DETERMINING COSTS OF DEPARTMENT-SPONSORED CONFERENCES........................... 17

     A.      Cost Categories. ........................................................................................................................................ 18 

     B.      “All Inclusive” Costs................................................................................................................................. 18 


IV.          APPROVALS FOR DEPARTMENT-SPONSORED CONFERENCES........................................... 18

     A.      Approval for Predominantly Internal Conferences Held in Non-Federal Facilities.................................. 19 

     B.      Approval for Conferences that Cost the Department more than $500,000. .............................................. 19 

     C.      Approval for Conferences that Cost the Department more than $100,000 through $500,000. ................. 19 



                                                                                                                                                           Page 3 of 33 
 
                                                                         Attachment 4
                                                                            DOJ 1400.01
                     PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

    D.    Approval for Conferences that Cost the Department $100,000 or Less.................................................... 20 

    E.    Advance Approval for Logistical Conference Planners ............................................................................ 20 

    F. Approval for Refreshments, and Programmatic Conference Planners, Conference Space and Audio-
    visual Equipment and Services that Exceed the Cost Thresholds. .................................................................... 20 

    G.    Ethics Approval for Gift Acceptance. ....................................................................................................... 20 

    H.    Conference Approval Request Process for AG, DAG and AAG/A Approved Conferences. ................... 20 


V. APPROVALS FOR NON-DEPARTMENT-SPONSORED CONFERENCES AND ATTENDANCE 

AT CONFERENCES HELD OUTSIDE THE UNITED STATES................................................................. 21

    A.    Approval For Expenditures Over $100,000 At Non-Department-Sponsored Conferences. ..................... 21 

    B.    Approval for Attendance At Conferences Held Outside The United States. ............................................ 22 


VI.       REPORTING REQUIREMENTS......................................................................................................... 22

    A.    Predominantly Internal Conferences Held in Non-federal Facilities. ....................................................... 22 

    B.    Conferences that Cost the Department more than $20,000. ...................................................................... 23 

    C.    Attendance at Non-Department-sponsored Conferences. ......................................................................... 23 

    D.    Required Report Formats. ......................................................................................................................... 23 


VII.      INTERNAL CONTROLS. ..................................................................................................................... 23


VIII. QUESTIONS. .......................................................................................................................................... 24


Attachment 1: Department of Justice-Sponsored Conference Request and Report ..................................... 25


Attachment 2: Component Certification........................................................................................................... 30


Attachment 3: Attendance at Conferences Held Outside the U.S................................................................... 31


Attachment 4: Attendance at Non-Department-Sponsored Conferences Report ......................................... 32


APPENDIX: ACTION LOG .............................................................................................................................. 33





                                                                                                                                             Page 4 of 33 
 
                                                                  Attachment 4
                                                                     DOJ 1400.01
              PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

I.   POLICY DEFINITIONS.

     A. Conference.

        The Federal Travel Regulation (FTR) defines a conference, in part, as a meeting, retreat,
        seminar, symposium, or training activity. 41 C.F.R. § 300-3.1. A conference is typically a pre-
        arranged event with designated participants and/or registration, a published substantive agenda,
        and scheduled speakers or discussion panels on a particular topic. The following are
        definitions of specific types of conferences:

        1.	 Meeting. A meeting is a gathering of people for a specific purpose such as to discuss the
            agency mission or other issues.

        2.	 Retreat. A retreat is a meeting that is held outside the office to ensure privacy and to limit
            interruptions.

        3.	 Seminar. A seminar is a gathering of people to study or research an issue or to discuss and
            exchange information on a particular topic.

        4.	 Symposium. A symposium is a gathering for the discussion of a particular subject where
            there is a speaker(s) and attendees.

        5.	 Training activity. Training is an educational or instructional activity. Training
            conferences can be for federal employees and/or non-federal individuals. Training may
            enhance an attendee’s qualifications for a current job or be mandatory in order to qualify
            for and/or maintain a position (e.g., mandatory supervisor’s training). Unless otherwise
            excluded in this policy, training activities qualify as conferences.

     B. Conference Exemptions.

        For the purposes of this policy, the following types of meetings and events do not qualify as
        conferences and therefore do not need to be approved or reported as described below. Note,
        however, that the following types of meetings and events may be covered by other statutes,
        regulations, policies and approval requirements, and should only be held when they are
        essential to accomplishing a core mission requirement. Further, any related expenditures of
        Department funds must be fiscally prudent; in particular, costs of travel, food and beverages,
        where permitted, must be kept to a minimum.

        1.	 Conferences held by grant recipients (note: conferences held by cooperative agreement
            recipients are covered by this policy).


                                                                                               Page 5 of 33 
  
                                                                               Attachment 4
                                                                                  DOJ 1400.01
                           PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

              2.	 Awards ceremonies (note: an awards ceremony that is part of an event that otherwise
                  qualifies as a conference is covered by this policy).

              3.	 Special events (e.g., Equal Employment Opportunity diversity programs, job fairs,
                  memorial services) and events funded exclusively with Representation Funds1 (note: a
                  special event that is part of a larger event that otherwise qualifies as a conference is covered
                  by this policy).

              4.	 Law enforcement operational activities, including staging, surveillance, investigation,
                  intelligence, and undercover activities.

              5.	 Prosecutorial activities in connection with a specific case or criminal activity.

              6.	 Testing activities where the primary purpose of the event is to evaluate an applicant's
                  qualifications to perform certain duties necessary to perform his or her job. This includes
                  firearms and weaponry proficiency testing and certifications. A majority of the event must
                  be devoted to the administration and taking of the test. Testing activities that are incidental
                  to a training course or conference or are given upon its completion to determine satisfactory
                  participation are not exempt from this policy.

              7.	 Training courses taught at federal training centers.2

              8.	 Training courses taught in federal facilities if there are no costs for logistical conference
                  planning, government-provided food or beverages.
                       
              9.	 Routine operational meetings (e.g. staff meetings, all hands meetings) and site visits, if held
                  in a federal facility (or, for meetings held by cooperative agreement recipients only, held
                  in a non-federal facility that does not charge for its use) and there are no costs to the
                  Department for logistical conference planning, government-provided food or beverages.

              10. Video conferences and webinars where there are no costs to the Department for logistical
                  conference planning, government-provided food or beverages.

                                                            
1
     “Representation Funds” can be used to pay for “official expenses of a social nature intended in whole or in predominant
      part to promote goodwill toward the Department or its missions.” (28 U.S.C. § 530C(b)(1)(D)). The Department’s
      Representation Funds are strictly limited, and any expenditures must be in compliance with DOJ Order 2110.31B and be
      approved by the head of the component making such expenditure or his or her authorized delegate. Such expenditures
      must also be tracked to ensure that they do not exceed the annual limit.
 
2	
      Examples of federal training centers include: the National Advocacy Center, the Federal Law Enforcement Training
      Center, the Federal Bureau of Investigation Academy, the Bureau of Prisons National Corrections Academy, and the
      Drug Enforcement Administration Training Academy. Contracted training venues that are managed by a private entity,
      such as the Bolger Center, are not considered federal training centers.
                                                                                                               Page 6 of 33 
 
                                                                               Attachment 4
                                                                                  DOJ 1400.01
                           PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

              11. Peer Reviews, performed primarily by non-federal independent evaluators, to evaluate grant
                  and cooperative agreement applications, where there are no costs to the Department for
                  government-provided food or beverages.

              12. Federal advisory committee meetings covered by 5 U.S.C. App. 2.

       C. Department-Sponsored Conference.

              “Department-sponsored conference” means any conference planned and conducted by the
              Department, or a conference planned and conducted by an outside entity through the use of a
              contract or a cooperative agreement entered into by the Department. A Department-sponsored
              conference can be a no-cost conference. With respect to conferences where the Department
              provides part of the funding and the rest of the funding is provided by one or more other federal
              agencies or non-federal entities,3 the conference is considered “Department-sponsored” if the
              Department provides more funding than any other agency or entity and the Department controls
              a majority of the conference. If the Department has received some or all of the funding for the
              conference from another agency through a reimbursable agreement, the Department is
              considered the sponsor of the conference for the purposes of this policy if the Department
              controls a majority of the conference and is responsible for obligating the funds. Components
              should consider this when entering into reimbursable agreements with other agencies and
              ensure that the agencies providing funds are aware of the policies that will need to be followed
              if the Department controls the conference. With respect to conferences funded by more than
              one Department component, the component providing the majority of funding is considered the
              primary sponsor and will be responsible for any required approvals and reporting. (See § III
              for guidance on determining conference costs.)

       D. Non-Department-Sponsored Conference.

              A “non-Department-sponsored conference” is any conference that is not covered by § I(C).4
              This includes conferences where the Department is only paying for the registration fees and/or
              travel of the attendees.

       E. Predominantly Internal Conference.

              A “predominantly internal conference” is a Department-sponsored conference (including a
              training activity) where a majority (more than 50%) of the attendees are Department
              employees.
                                                            
3	
       To the extent that Department components consider co-sponsoring or partnering with a non-federal entity when putting
       on a conference they should only do so in consultation with their Ethics Office.
4	
       Examples of non-Department-sponsored conferences include conferences conducted by the Association of Government
       Accountants and the International Association of Chiefs of Police. 
                                                                                                                Page 7 of 33 
 
                                                                 Attachment 4
                                                                    DOJ 1400.01
             PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

    F. External Conference Planner.

       An “external conference planner” is a contractor or cooperative agreement recipient (including
       a contractor of a cooperative agreement recipient) hired or selected to assist in the planning of a
       conference. (Note that general references to “conference planners” include external planners
       and internal Department staff planning a conference.)

        1.	 Logistical conference planners perform the logistical planning necessary to hold a
            conference, which may include: recommending venues, advertising, setting the stage and
            audio-visual (A/V) equipment, securing hotel rooms, interacting with caterers, and other
            non-programmatic functions.

        2.	 Programmatic conference planners develop the conference agenda, content, and written
            materials. They may also identify and/or provide appropriate subject matter experts and
            conference participants.

    G. Conference Trainer/Instructor/Presenter/Facilitator.

       These terms refer to a subject matter expert who provides training, instruction, presentation or
       facilitation during the conference. This individual may conduct classes, lead sessions to ensure
       the purposes of the conference are met, give presentations on the conference topic, or staff a
       booth or table providing information. A conference attendee, by contrast, is an individual who
       is attending the conference and is not engaging in the activities described above.

    H. Federal Facility.

       “Federal facility” means property or building space owned, leased, or substantially controlled
       by the federal government or the Government of the District of Columbia.

    I.	 Non-Federal Facility.

       “Non-federal facility” is any facility that is not a federal facility. State and local government
       facilities are considered “non-federal facilities.”
         
    J.	 Cooperative Agreement.

       A “cooperative agreement” is an agreement whereby a Department component transfers funds
       or something of value to another entity in order to perform an activity that accomplishes a
       public purpose, and substantial involvement by the component is anticipated during the
       performance of the activity. A cooperative agreement may not be chosen by a component in
       order to avoid the statutory and regulatory requirements associated with the use of a contract.
                                                                                               Page 8 of 33 
 
                                                                   Attachment 4
                                                                      DOJ 1400.01
               PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

         The decision to use a cooperative agreement, as opposed to a contract or grant, should be made
         in consultation with the component’s legal counsel, applying the standards set forth in 31
         U.S.C. § 6305. A cooperative agreement may be used for a conference that carries out a public
         purpose of support or stimulation of outside entities, and substantial involvement by the
         Department is expected. Although the standards in § 6305 must govern the choice of legal
         instrument, in determining if a conference would carry out such a public purpose (as opposed to
         merely providing a direct benefit to the Department or its employees), a significant factor is
         whether the primary beneficiaries of the conference are outside the federal Government.

II.   POLICY FOR DEPARTMENT-SPONSORED CONFERENCES.

      The requirements in §§ A-I of this part apply to ALL Department-sponsored conferences
      conducted by the Department or a contractor. Cooperative agreement recipients must follow the
      requirements in § J.

      A. Necessity and Fiscal Prudence Written Justification.

         The decision to sponsor a conference requires fiscal prudence and is subject to the availability
         of funds. Components must document a written justification for each conference it sponsors
         that certifies that the conference is essential to accomplishing core mission requirements and
         includes a programmatic reason to hold the conference. Components must consider whether
         they can conduct a conference using the least expensive alternatives available, such as video
         conferences and webinars. The individuals planning the conference must exercise fiscal
         prudence to ensure that conference costs (including administrative, travel and time costs) are
         limited and that government funds are not being expended for items or activities that do not
         support the Department’s core missions. Components are also required to follow, to the extent
         applicable, the guidance in the FTR (41 C.F.R. 301-74, “Conference Planning”), OMB
         guidance, and any component guidance and/or Financial Guides. To the extent that
         components hire contractors, all procurements must be in compliance with the Federal
         Acquisition Regulation (FAR), and components must retain all documentation of any cost
         comparisons conducted in evaluating potential contractors for the conference. The
         documentation required in this section and those below must be maintained in a file pursuant to
         § VII.

      B. Interaction with Entities Doing Business with the Department.

         1.	 When contracting for goods and services associated with conferences, components must
             adhere to all applicable legal and ethical requirements in working with contractors.
             Guidance related to specific types of contractors (e.g., conference planners) can be found
             below.

                                                                                              Page 9 of 33 
   
                                                                  Attachment 4
                                                                     DOJ 1400.01
              PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

          Components may also interact with other outside entities (e.g., associations of retired
          former federal employees, private companies with business before the component or the
          Department) in the planning and running of conferences. Such entities may offer to fund or
          otherwise “sponsor” meals, refreshments, or portions of a conference, set up a trade show
          targeted at conference attendees, or otherwise seek to interact with conference attendees.
          There is no one test for determining when such offers should be accepted. When such
          entities have interests or matters before the component or the Department, extra care must
          be taken to avoid giving the appearance that it is a jointly sponsored event. In addition, it is
          important that the Department not be seen as endorsing private enterprise, membership
          organization, particular products and services, or a point of view. Components should
          obtain guidance from appropriate ethics and legal offices to prior to agreeing to these kinds
          of arrangements with external parties.
           
    C. Location.

       A conference location is comprised of two variables: the city and the facility in which the
       conference takes place. To ensure that the government obtains the best conference location for
       the best value, individuals planning the conference must compare multiple facilities in multiple
       cities, unless an overriding operational reason is documented to hold the conference in a
       specific city. Adequate cost comparisons must compare and document the availability of
       lodging rooms at per diem rates, the convenience of the conference location, availability of
       meeting space, equipment and supplies, and the commuting or travel distance of attendees.
       When selecting the most cost effective location and facility, components are required to follow
       procurement regulations, including the competitive bid process, as appropriate. Individuals
       planning a conference should also consider their proximity to the locations they are considering
       and make every effort to minimize the costs and need for site visits.

       To ensure that components maximize the use of federal facilities and minimize total costs to the
       Department, individuals planning a conference must first consider all federal facilities in the
       locations identified via city-level cost comparison analyses. A list of some federal facilities is
       available on the Conference Reporting and Non-federal Facility Request Center web site:
       http://dojnet.doj.gov/jmd/fs/nfrc/. The component may only consider non-federal facilities if:

        1.	 Federal facilities are not available or do not meet the component’s requirements (e.g., size
            of the meeting room, necessary technological equipment, sufficient lodging at the facility
            or in the proximity of the facility); or

        2.	 The component documents that a non-federal facility can be procured at a lower cost
            taking into account all costs described in § III of this policy. This must be documented in
            writing following the federal procurement regulations, including the competitive bid
            process, as appropriate.
                                                                                             Page 10 of 33 
 
                                                                               Attachment 4
                                                                                  DOJ 1400.01
                           PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

              If a component is considering non-federal facilities, the conference planner must conduct and
              maintain documentation of market research to determine the facility that best meets the needs
              of the conference as set forth in the Federal Acquisition Regulation (FAR), Volume 1, Part 10.
              In order for this market research to be effective, the components must communicate the same
              sufficiently detailed requirements to all potential facilities. During the market research,
              components must not make any commitments to any of the facilities. The market research
              must determine the cost of the conference with respect to each of the three (or more) facilities,
              with the costs listed as required in § III.

              Conference planners must exercise special care when considering holding a conference in any
              location that may give rise to appearance issues, such as a resort location. Conference planners
              must ensure that the choice to hold a conference in such a location is made only when there is a
              determination that it is the most cost-effective option, such as when the majority of conference
              attendees are stationed at or near the location.

       D. Charging Conference Fees.

              A component cannot charge fees to conference attendees to cover its costs without specific
              statutory authority to do so. See 31 U.S.C. § 3302. However, if the component uses a private
              contractor (such as an external conference planner, hotel, or other third party) to facilitate the
              conference or provide goods and services to the attendees, the contractor may charge fees. It is
              important that the fees charged by the contractor cover only the goods and/or services provided
              to the attendees by the contractor (or subcontractor(s)) and do not cover or defray costs that are
              the responsibility of the component. For example, if a contractor such as a hotel is providing
              attendees with lodging, meals and refreshments for a conference, the hotel may charge
              attendees directly for the costs of those items. The contractor must deal directly with the
              attendees to collect the fees; the component must not be involved in any such collection.

       E. Use of External Conference Planners.

              Minimizing conference costs must be a critical consideration in a component’s decision
              whether to plan a conference with internal Department staff or to enter into a contract with an
              external conference planner. Because of their cost, external conference planners may be used
              only in exceptional circumstances when they are critically necessary.

              The cost allowed for logistical conference planners is limited to $50 for each attendee,5 not to
              exceed a cumulative cost total of $8,750. For example, if the number of attendees at a
              conference is 100, the cost allowed for a logistical planner is $5,000 ($50 X 100 attendees). If
              it is expected that an external logistical conference planner will meet these limitations, no

                                                            
5
    Costs of trainers, instructors, presenters and facilitators are to be included as attendees when calculating thresholds.
                                                                                                                  Page 11 of 33 
 
                                                                               Attachment 4
                                                                                  DOJ 1400.01
                           PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

              further justification is needed. If these limitations are expected to be exceeded, the costs must
              be justified in writing and approved by the Assistant Attorney General for Administration
              (AAG/A) as described in § IV(E) in advance of the component signing a contract.

              The cost allowed for programmatic conference planners is limited to $200 for each attendee,6
              not to exceed a cumulative cost total of $35,000.   For example, if the number of attendees at a
              conference is 100, the cost allowed for a programmatic planner is $20,000 ($200 X 100
              attendees). If these limitations are met, no further justification is required. If these limitations
              are exceeded, the costs must be justified and approved by the AAG/A as described in § IV(F).

       F. Conference Space and Audio-visual Equipment and Services.

              The cost allowed for conference space and audio-visual equipment and services is limited to
              $25 per day per attendee,7 not to exceed a cumulative cost total of $20,000.8 If these
              limitations are met, no further justification is required. If these limitations are exceeded, the
              costs must be justified and approved by the AAG/A as described in § IV(F).

       G. Food and Beverages. 
 
              Food and beverages are generally considered personal expenses for which government funds
              should not be used. A rare exception will be made for working meals at a conference that are
              necessary to accomplishing official business and enhancing the cost effectiveness of the
              conference. For example, a meal may be permissible where the conference would need to be
              extended if the working meal is not provided. While meals may at times be permissible, as a
              general rule Department funds may not be used to provide refreshments, food and/or beverages
              at any other time of day; i.e., as part of a refreshment break and/or as part of a reception
              (including welcoming, networking, social or working receptions). If a component determines
              that providing food and beverages at a refreshment break is necessary based on the unique and
              extenuating circumstances of the conference, AAG/A approval is needed as described in
              § IV(F). Receptions may only be funded by the Department if they are appropriately paid for
              using Representation Funds (see fn. 1).
                                                            
6
    See footnote 5.
7
    See footnote 5. 
8
    Example 1 – Does not require additional justification:

           The number of attendees at a 3 day conference is 100 and the total cost of conference space and A/V equipment is
           less than $7,500. ($25 X 3 days X 100 attendees = $7,500)

    Example 2 – Requires additional justification and approval by the AAG/A:

           The number of attendees at a 4 day conference is 225 and the total cost of conference space and A/V equipment is
           $22,000. Although the total is below the per person threshold of $22,500 ($25 X 4 days X 225 attendees = $22,500),
           the total cost exceeds the $20,000 threshold.
 
                                                                                                               Page 12 of 33 
 
                                                                      Attachment 4
                                                                         DOJ 1400.01
                  PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

          In addition to the limitations above, the following sections discuss the general rules regarding
          when meals can be provided to federal government employees, non-federal individuals, when
          attendees can be charged, and cost limits for meals. Note that even if these rules are followed,
          further evidence of the necessity of the meals will need to be provided in order for them to be
          approved.

          1.	 Federal Government Employees. Meals may be paid for by the Department and provided
              to federal Government employees at conferences where all three of the following are true:

               a.	 The meals are incidental to the conference or training;

               b.	 Attendance at the meals is important for the host agency to ensure attendees' full
                   participation in essential discussions, lectures, or speeches concerning the purpose of
                   the conference or training; AND

               c.	 The meals are part of a conference or training that includes not just the meals and
                   discussions, speeches, lectures, or other business that may take place when the meals
                   are served, but also includes substantial functions occurring separately from when the
                   food is served.

               Note: While as a general rule the Department does not pay for meals for Department
               employees at their duty stations, if a conference or training meets the above criteria, meals
               may be served to employees who are not on travel. (Note, however, that meals should
               rarely, if ever, be provided at a conference where a majority of attendees are at their duty
               stations.) With respect to Department employees who are on travel, they must deduct from
               their per diem the appropriate amount for each meal provided by the Department.

          2.	 Non-Federal Government Attendees. The Department can only pay for the meals of non-
              federal attendees at conferences if one of the following applies:

               a.	 The component has specific statutory authority permitting it (e.g. 42 U.S.C. § 3788(f)
                   for programs covered by the Omnibus Crime Control and Safe Streets Act; 42 U.S.C.A.
                   § 3771 and note);

               b.	 The non-federal attendees qualify as individuals serving the Department pursuant to 5
                   U.S.C. § 5703;9 or

                                                            
9
    Non-federal attendees who are provided any travel, lodging or meals by the Department pursuant to 5 U.S.C. § 5703

    must be issued invitational travel orders. These are required even when a non-federal attendee is “local” to the

    conference and is only being provided meals.
 

                                                                                                                Page 13 of 33 
 
                                                                               Attachment 4
                                                                                  DOJ 1400.01
                           PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

                      c. The expenses can be considered “official reception and representation expenses” (28
                         U.S.C. § 530C(b)(1)(D)), are appropriately approved as such and are counted towards
                         the Department’s Representation Fund limitations (see DOJ Order 2110.31B).

              3.	 Charging Non-Federal Attendees. As discussed in § II(D), a private contractor (such as an
                  external conference planner, hotel, or other third party) can charge fees to non-federal
                  attendees to cover the costs of such goods and services as meals. The contractor must deal
                  directly with the attendees to collect the fees for the meals; the component must not be
                  involved in any such collection.

              4.	 Minimizing costs of meals. Components, contractors and cooperative agreement
                  recipients must adhere to the following cost thresholds for the costs of the meals
                  provided at a conference. The cost of any meal provided, plus any hotel service costs and
                  tax, cannot exceed 150% of the locality M&IE rate per meal. For example, if dinner will be
                  provided in a locality with a $46.00/day M&IE rate, the dinner rate in the locality is $23.00
                  per dinner. Therefore, the cost of the dinner provided at the conference cannot exceed
                  $34.50 ($23.00 x 150%) per person. All attendees being reimbursed per diem for attending
                  the conference must ensure that the provided meal is deducted from their claimed M&IE; in
                  this example the employee would deduct $23.00 from claimed M&IE for the provided
                  dinner.

       H. Entertainment.

              Department funds may not be used for costs of entertainment, including amusement, diversion,
              and social activities and any costs directly associated with such costs (such as tickets to shows
              or sports events, meals, lodging, rentals, transportation, and gratuities).10 Department funds
              may only be used for work-related activities. The only exception is for entertainment that is
              appropriately paid for using Representation Funds (see fn. 1).

       I.	 Trinkets.

              Trinkets (items such as hats, mugs, portfolios, t-shirts, coins, etc., regardless of whether they
              include the component or conference name or logo) must not be purchased as giveaways for
              conferences. The only exception is for trinkets to be given to individuals outside the
              Department that are appropriately paid for using Representation Funds (see fn. 1). Basic
              supplies that are necessary for use during the conference (e.g., pens, paper, nametags) may be
              purchased.



                                                            
10
       This definition is taken from OMB Circulars A-21, "Cost Principles for Educational Institutions;" A-87, "Cost Principles
       for State, Local and Indian Tribal Governments;" and A-122, "Cost Principles for Non-Profit Organizations." 
                                                                                                                Page 14 of 33 
 
                                                                               Attachment 4
                                                                                  DOJ 1400.01
                           PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

       J.	 Requirements that Apply to Cooperative Agreement Recipients.

              1.	 Necessity and Fiscal Prudence Written Justification. A component must exercise fiscal
                  prudence when deciding whether to enter into a cooperative agreement (see
                  § I(J)) that contemplates a conference. Components must document a written justification
                  for each conference for which it enters into a cooperative agreement that certifies that the
                  conference is essential to accomplishing core mission requirements and includes a
                  programmatic reason to hold the conference. Components must consider whether the
                  cooperative agreement should require the conference to be a less expensive alternative such
                  as a video conference or webinar. Minimizing all conference costs (including
                  administrative, time and travel costs) should be the priority when approving the proposed
                  budget for the cooperative agreement.

              2.	 Directives. To the extent they are applicable, cooperative agreement recipients must
                  comply with the following: the Uniform Administrative Requirements for Grants and
                  Cooperative Agreements with Non-Profit Organizations (28 CFR Part 70), OMB Cost
                  Principles Circular A-122, 2 C.F.R. 230, the Office of Justice Programs Financial Guide,
                  the Office on Violence Against Women Financial Guide, and/or any other component-
                  specific guidance.

              3.	 Reasonable Standard. The amount spent on conference costs is governed by the general
                  principle that the costs be reasonable, which is further defined in OMB Circular A-122,
                  Attachment A, paragraph 3, and this policy. Furthermore, cooperative agreement recipients
                  must comply with the travel guidelines at OMB Circular A-122, Attachment B, paragraph
                  51, and the applicable component’s Financial Guide, which require that if a cooperative
                  agreement recipient does not have a written travel policy, the recipient must abide by the
                  rates and amounts established by the General Services Administration (GSA) in the FTR,
                  41 C.F.R. 301.11

              4.	 Location. Minimizing costs must be the primary goal of a cooperative agreement recipient
                  (or their sub-contractor) when determining the city and facility in which to hold a
                  conference. Cooperative agreement recipients and sub-contractors should consider multiple
                  facilities in multiple cities, unless there is an overriding operational reason to hold the
                  conference in a specific location. Cooperative agreement recipients must make every effort
                  to use no-cost facilities (including available government facilities) to the extent practicable.
                  Special care should be taken when considering holding a conference in a location or facility
                  that may raise appearance issues (such as a resort location), and these should only be used
                  when they are the most cost-effective option (such as when the majority of attendees live in
                  that location). 
                                                            
11
       GSA’s regulations and per diem rates may be found at www.gsa.gov. 
                                                                                                     Page 15 of 33 
 
                                                              Attachment 4
                                                                 DOJ 1400.01 

          PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

    5.	 Conference Planners. Minimizing conference costs must be a critical consideration in a
        cooperative agreement recipient’s decision regarding whether to plan a conference with
        internal staff or to enter into a contract with an external conference planner. Cooperative
        agreement recipients must track the costs of both logistical and programmatic conference
        planning regardless of whether they are conducted by internal staff or external planners.
        General activities of internal staff or contractors that further the broader goals of the
        cooperative agreement but are not directly related to the conference do not need to be
        counted towards conference planning costs, but the cost of any work that is directly related
        to the conference must be counted. Indirect cost rates must be applied to conference
        planning costs in accordance with negotiated agreements, must be included when
        calculating cost thresholds, and must be included as part of the total conference planning
        costs. The costs allowed for logistical conference planning (whether being handled
        internally or through a contractor) must be in compliance with the amounts in § II(E);
        otherwise the cooperative agreement recipient must submit a written justification of the
        additional charges to the component for specific advance approval by the AAG/A as
        described in § IV(E). The costs allowed for programmatic conference planning (whether
        being handled internally or through a contractor) must be in compliance with the amounts
        in § II(E); if these limitations are exceeded the cooperative agreement recipient must submit
        a written justification of the additional charges to the component for specific AAG/A
        approval as described in § IV(F).

    6.	 Conference Space and Audio-Visual Equipment and Services. Cooperative agreement
        recipients must limit the cost of conference space and audio-visual equipment to $25 per
        day per attendee, not to exceed a total of $20,000 for the conference. Indirect cost rates
        must be applied to conference space and audio-visual equipment costs in accordance with
        negotiated agreements, must be included when calculating cost thresholds, and must be
        included as part of the total conference cost. If these limitations are exceeded, the
        cooperative agreement recipient must submit a written justification of the additional
        charges to the component for specific approval by AAG/A as described in § IV(F).

    7.	 Food and Beverages. Food and beverages are generally considered personal expenses for
        which government funds should not be used. A rare exception will be made for working
        meals at a conference that are necessary to accomplishing official business and enhancing
        the cost effectiveness of the conference. For example, a meal may be permissible where the
        conference would need to be extended if the working meal is not provided. The
        requirements and cost limitations in § II(G)(4) apply to meals provided by cooperative
        agreement recipients at conferences. Indirect cost rates must be applied to food and
        beverage costs in accordance with negotiated agreements. While meals may at times be
        permissible, as a general rule Department funds may not be used to provide refreshments,
        food and/or beverages at any other time of day; i.e., as part of a refreshment break and/or as
        part of a reception (including welcoming, networking, social or working receptions)
                                                                                         Page 16 of 33 
 
                                                                                  Attachment 4
                                                                                     DOJ 1400.01
                              PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

                         without specific approval. If a component determines that a cooperative agreement
                         recipient must provide refreshment breaks based on the unique and extenuating
                         circumstances of the conference, AAG/A approval is needed as described in § IV(F).
                         Receptions may only be funded by the Department if they are appropriately paid for using
                         Representation Funds (see fn. 1).

                 8.	 Entertainment. Department funds may not be used for costs of entertainment, including
                     amusement, diversion, and social activities and any costs directly associated with such costs
                     (such as tickets to shows or sports events, meals, lodging, rentals, transportation, and
                     gratuities).12 Department funds may only be used for work-related activities.

                 9.	 Trinkets. Trinkets (items such as hats, mugs, portfolios, t-shirts, coins, etc., regardless of
                     whether they include the component or conference name or logo) must not be purchased
                     with Department funds as giveaways for conferences. Basic supplies that are necessary for
                     use during the conference (e.g., pens, paper, name tags) may be purchased.

III.       DETERMINING COSTS OF DEPARTMENT-SPONSORED CONFERENCES.

           When determining the cost of a Department-sponsored conference, all costs incurred by the
           Department must be included, including costs funded by another agency pursuant to a reimbursable
           agreement.

           If a component sponsors a conference and Department employees from another component attend
           and/or are involved in the conference, travel costs of the attendees and the
           trainers/instructors/presenters/facilitators must be included in the total cost of the conference. The
           sponsoring component must provide the attendees and trainers/instructors/presenters/facilitators
           with instructions on how to report such costs to the sponsoring component. The sponsoring
           component must also include the costs of any non-Department attendees and the
           trainers/instructors/presenters/facilitators for which the Department is paying their travel expenses
           pursuant to an invitational travel order. Therefore, all travel costs being paid for by the
           Department (including travel costs for: attendees and trainers/instructors/presenters/facilitators,
           regardless of whether they work for the sponsoring component, another Department component, or
           outside the Department) must be included in the travel cost categories (#6-9) below.

           If a cooperative agreement recipient charges fees for conference attendance or receives other
           income and uses that income to pay for certain conference costs, those costs are not considered
           costs incurred by the Department and are not to be included in the total conference cost.



                                                               
   12
          See footnote 10. 
                                                                                                       Page 17 of 33 
    
                                                                    Attachment 4
                                                                       DOJ 1400.01
                PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

      A. Cost Categories.

         The following are cost categories to be included when determining the total conference cost:
         1.	 Conference meeting space (including rooms for break-out sessions);
         2.	 Audio-visual equipment and services;
         3.	 Printing and distribution;
         4.	 Meals provided by the Department (breakfast, lunch, and dinner);
         5.	 Refreshments (if AAG/A approval given, § IV(E)) provided by the Department;
         6.	 Meals and incidental expenses (M&IE portion of per diem) paid by the Department;
         7.	 Lodging paid by the Department;
         8.	 Common carrier transportation to/from conference location paid by the Department;
         9.	 Local transportation (e.g., rental car, POV to and from airport, taxi) paid by the
             Department;
         10. Logistical conference planner;
         11. Programmatic conference planner;
         12. External trainers/instructors/presenters/facilitators;
         13. Other costs: all other costs must be identified individually;
         14. Indirect Costs: 	In accordance with negotiated agreements, all indirect costs associated with
             a conference must be applied to the above categories, as appropriate. The request and
             reporting format for including indirect costs is shown in Attachment 1.

      B. “All Inclusive” Costs.

         For locations where the cost is all-inclusive (e.g. National Conference Center, Leesburg, VA),
         meals and lodging need to be allocated to those categories based on per diem rates established
         by GSA, the Department of Defense, or the State Department, as appropriate.

IV.   APPROVALS FOR DEPARTMENT-SPONSORED CONFERENCES.

      Components must not proceed with a conference, or enter into a conference-related contract
      (except as allowed below for logistical conference planners), until approval has been given, as
      required by this policy. Components must also ensure that its cooperative agreement recipients:
      (1) do not proceed with a conference until appropriate approval has been given, and (2) comply
      with the approval process regarding logistical conference planning below; and (3) keep their
      Department contacts informed of all decisions being made during the conference planning process
      to ensure that they are complying with the relevant policies.

      Logistical Conference Planning: Prior to conference approval a component may enter into a
      contract for logistical conference planning services as long as there is an expectation that the cost
      of such a contract will be within the threshold in § II(E). If the contract is expected to exceed the
      threshold, the component must get advance approval from the Assistant Attorney General for

                                                                                                Page 18 of 33 
   
                                                                               Attachment 4
                                                                                  DOJ 1400.01
                           PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

       Administration (AAG/A) as described in § IV(E) before entering into such a contract. With respect
       to cooperative agreement recipients, if the cooperative agreement recipient is planning the
       conference internally, advance approval from the AAG/A as described in § IV(E) is needed before
       the costs of such planning can exceed the threshold in § II(E). Cooperative agreement recipients
       are permitted to contract for logistical planning services as long as there is an expectation that the
       cost of such a contract will not exceed the threshold in § II(E); if the contract is expected to exceed
       the threshold the cooperative agreement recipient must notify the component and the component
       must get advance approval from the AAG/A as described in § IV(E) before the cooperative
       agreement recipient can enter into such a contract.

       A. Approval for Predominantly Internal Conferences Held in Non-Federal Facilities.

              Predominantly internal conferences (including training) held in non-federal facilities must be
              approved first by the Component Head or Principal Deputy13 and then by the AAG/A
              regardless of the cost. This authority has not been redelegated. See § I(E) for a definition of a
              predominantly internal conference and § IV(H) for information on submitting requests for
              approval.

       B. Approval for Conferences that Cost the Department more than $500,000.

              Conferences estimated to cost the Department more than $500,000 are prohibited unless a
              waiver is granted by the Attorney General (AG). The AG must determine that exceptional
              circumstances exist that justify that the conference is the most cost-effective option to achieve a
              compelling purpose. Conferences estimated to cost the Department more than $500,000 must
              be approved first by the Component Head or Principal Deputy, the Deputy Attorney General
              (DAG), and then the Attorney General. See § IV(H) for information on submitting requests for
              approval.

       C. Approval for Conferences that Cost the Department more than $100,000 through
          $500,000.

              Conferences estimated to cost the Department more than $100,000 but less than $500,000 must
              be approved first by the Component Head or Principal Deputy and then by the DAG. See
              § IV(H) for information on submitting requests for approval.




                                                            
13
      In every place in this policy where authority is delegated to the Component Head or Principal Deputy, in the case of the
      Federal Bureau of Investigation the authority is also delegated to the Associate Deputy. Further, if there is a situation in
      which a component does not have a Principal Deputy or an individual who has been designated as the Acting Principal
      Deputy, the AAG/A may delegate approval authority to a senior official in the component until the time at which a
      Principal Deputy or Acting Principal Deputy is named.
                                                                                                                    Page 19 of 33 
 
                                                                 Attachment 4
                                                                    DOJ 1400.01
             PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

    D. Approval for Conferences that Cost the Department $100,000 or Less.

       Conferences estimated to cost the Department $100,000 or less require Component Head or
       Principal Deputy approval. AAG/A approval is also required to the extent the conference
       includes refreshments and/or expenditures exceeding the thresholds for conference planners,
       conference space and audio-visual equipment and services (see IV(F)). 

    E. Advance Approval for Logistical Conference Planners

       If a component expects a contract for logistical conference planning services will exceed the
       threshold in § II(E), or a cooperative agreement recipient expects their internal or contractor
       logistical conference planning costs will exceed the threshold in § II(E), advance approval from
       the AAG/A is required before a contract can be signed or cooperative agreement recipient costs
       can exceed this threshold. Components must submit Attachment 1 and include as much
       information as available about the conference, and include an explanation as to why the
       logistical conference planning costs are expected to exceed the threshold.

    F. Approval for Refreshments, and Programmatic Conference Planners, Conference Space
       and Audio-visual Equipment and Services that Exceed the Cost Thresholds.

       The AAG/A must specifically approve conference expenditures for refreshments and costs that
       exceed the thresholds for: programmatic conference planners (§ II(E)) and conference space
       and audio-visual equipment and services (§ II(F)). See § IV(H) for information on submitting
       requests for approval.

    G. Ethics Approval for Gift Acceptance.

       In cases where a non-Federal entity offers to allow a component to use a conference location,
       facility or room at no cost, or offers to fund food or beverages at the conference, this will raise
       ethics and/or gift acceptance questions and may require approval by a Component Head and/or
       the AAG/A prior to acceptance. Components must contact their Ethics Official and appropriate
       legal offices for a determination of whether specific approval for gift acceptance is required in
       such cases.

    H. Conference Approval Request Process for AG, DAG and AAG/A Approved Conferences.

       Conference approval requests must be submitted at least 90 calendar days prior to the expected
       date of contract award or the conference itself if there is no contract to be awarded or if the
       conference is being held by a cooperative agreement recipient. Components will receive a
       response to each request within 30 calendar days of receipt. 



                                                                                             Page 20 of 33 
 
                                                                   Attachment 4
                                                                      DOJ 1400.01
               PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

         1.	 Requests for all Department-sponsored conferences requiring the AAG/A, DAG, or AG
             approval must be submitted by the Component Head or Principal Deputy via email to the
             JMD Finance Staff at Conferences.and.Non-federal.Center@usdoj.gov. The submission
             responsibility may be redelegated to the Chief Financial Officer or the Executive Officer;
             however, the required certification may not be redelegated. These requests must be in the
             format presented in Attachment 1. Requests on any other form will be returned to the
             submitter unless approval to use a different form has been granted by the Director, Finance
             Staff.

         2.	 Certifications and Conference Agendas. A conference approval request for a conference
             requiring AAG/A, DAG, or AG approval must include a certification (Attachment 2) and
             the conference agenda. The certification must be in writing from the Component Head or
             Principal Deputy and state that the conference complies with all Department guidelines and
             controls set forth in this policy. The certification also must explain how the conference is
             essential to accomplishing the component’s core mission. This cannot be redelegated.

         3.	 Requests must be consolidated by the component and submitted for approval no more than
             once per week.

         4.	 Blanket Requests are permissible. Components may request approval for more than one
             conference (blanket request) at the same time if the name and purpose of each conference
             are the same and they occur during the same fiscal year. The locations and dates of the
             conferences must be identified in the request (if known). The requirements for a blanket
             request are the same as for requesting individual conferences. Each conference must be
             reported individually as required by § VI.

V.	   APPROVALS FOR NON-DEPARTMENT-SPONSORED CONFERENCES AND
      ATTENDANCE AT CONFERENCES HELD OUTSIDE THE UNITED STATES
   
      A. Approval For Expenditures Over $100,000 At Non-Department-Sponsored Conferences.

         To the extent that the Department proposes to spend more than $100,000 on a non-Department-
         sponsored conference (as defined in § I(D) of this policy), whether through funding support,
         travel expenses for sending attendees, trainers/instructors/presenters/facilitators, registration
         fees, and/or another type of support, such expenditures must be approved first by the DAG.
         Any proposed expenditure on a non-Department-sponsored conference that exceeds $500,000
         must have a waiver signed by the AG. The Finance Staff will conduct data calls in order to
         ensure that any such conference expenditures are properly tracked and approved. If conference
         attendance or support arises in between data calls, the component must immediately resubmit
         the data call response to include the new information.


                                                                                             Page 21 of 33 
   
                                                                                     Attachment 4
                                                                                        DOJ 1400.01
                                 PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

             B. Approval for Attendance At Conferences Held Outside The United States.
       
             The Department is statutorily prohibited from sending more than 50 employees14 to a single
             conference occurring outside the United States (regardless of whether it is Department-sponsored
             or not),15 unless:

                    1.	 The conference is a law enforcement training or operational conference for law
                        enforcement personnel; and

                    2.	 The majority of Federal employees in attendance are law enforcement personnel stationed
                        outside the United States.16

             Each component is responsible for determining if the criteria listed above are met. The Justice
             Management Division, Finance Staff, will track attendance at conferences held outside the United
             States that do not meet the above criteria. Therefore, if a component intends to send employees
             (regardless of their duty stations) to a conference held outside the United States that does not meet
             the above criteria, the Component Head, or designee, must complete Attachment 3 at least 30
             calendar days prior to the conference and send it to
             Conferences.and.Non-federal.Center@usdoj.gov, with the subject line “Attendance at a Conference
             Held Outside the United States.” Component Heads may redelegate this responsibility to no lower
             than the component Chief Financial Officer or Executive Officer consistent with good
             management. The Director, Finance Staff, will notify the component within 14 calendar days if the
             attendees are within the 50 attendee Departmental limitation. Once the 50 attendee limitation is
             reached, additional attendees will not be approved to attend.

VI.          REPORTING REQUIREMENTS.

             Components must report the following Department-sponsored conferences (including those
             sponsored by cooperative agreement recipients, but excluding those listed in § I(B)) quarterly no
             later than 45 calendar days after the end of each quarter.

             A. Predominantly Internal Conferences Held in Non-federal Facilities.

                    Components must report the costs of all predominantly internal conferences held in non-federal
                    facilities regardless of the cost using Attachment 1. A “predominantly internal conference” is a
                    Department-sponsored conference (including a training activity) where a majority (more than
                    50%) of the attendees are Department employees (§ I(E)).

                                                                  
      14
          Note that trainers/instructors/presenters/facilitators, as defined in § I(G), are not to be included when calculating the
          number of conference attendees. If an employee is both an attendee and a trainer/instructor/presenter/facilitator, the
          employee should not be included in the attendee count.
      15
          The “United States” include the 50 United States and the District of Columbia.
 
      16
          Section 531, Division B, Public Law 112-55.

                                                                                                                         Page 22 of 33 
   
                                                                                  Attachment 4
                                                                                     DOJ 1400.01
                              PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

          B. Conferences that Cost the Department more than $20,000.

                 Components must report the costs of each Department-sponsored conference for which the total
                 cost is more than $20,000 using Attachment 1. The AG is required to submit this information
                 to the Department’s Inspector General. The Department is also required to post information on
                 its web site regarding all Department-sponsored conferences that cost the Department more
                 than $100,000.17 The web posting will include: the total conference expenses incurred by the
                 Department for the conference; the location and date(s) of the conference; a brief explanation
                 of how the conference advanced the mission of the agency; and the total number of individuals
                 whose travel expenses or other conference expenses were paid by the Department. Further,
                 with respect to a conference that cost the Department more than $500,000, the Department is
                 required to post the Attorney General’s waiver that identified the exceptional circumstances
                 that necessitated exceeding this threshold.

          C. Attendance at Non-Department-sponsored Conferences.

                 Components must report conference attendance quarterly, no later than 45 calendar days after
                 the end of each quarter using Attachment 4. This form should be used only to report attendance
                 at non-Department sponsored conferences; attendance at Department-sponsored conferences
                 will be captured in the § VI(A) reporting.

          D. Required Report Formats.

                 Components must submit conference reports using Attachments 1 and 4. Reports on any other
                 form will be returned to the submitter unless approval to use different forms has been granted
                 by the Director, Finance Staff. Each component must consolidate its reports so only one report
                 per component is submitted. Negative reports are required if no conferences were sponsored or
                 attended. Reports, including negative reports, must be signed by the Component Head or
                 Principal Deputy and be submitted via email to:
                 Conferences.and.Non-federal.Center@usdoj.gov. The submission responsibility may be
                 redelegated to the Chief Financial Officer or the Executive Officer; however, the required
                 signature on the report may not be redelegated.

VII.      INTERNAL CONTROLS.

          Components are required to include a review of planning, approving, and reporting Department-
          sponsored conferences during its testing required by OMB Circular A-123, Management’s
          Responsibility for Internal Control. In addition, on a quarterly basis, the JMD FS Quality Control
          and Compliance Group will select a sample of conferences reported for review against this policy.
                                                               
   17
         See OMB Memorandum M-12-12, Promoting Efficient Spending to Support Agency Operations, May 11, 2012. 
    
                                                                                                        Page 23 of 33 
    
                                                                     Attachment 4
                                                                        DOJ 1400.01
                 PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

        Components must keep on file for review accurate records documenting the conference planning
        and approval process, procurement records and methodologies, cost comparisons and actual costs,
        etc.

VIII.   QUESTIONS.

        Questions regarding these requirements may be directed to Chris Alvarez, Deputy Director,
        Finance Staff, Justice Management Division, on (202) 616-5234, or Lori Fears, Assistant Director,
        Travel Services Group, Finance Staff, Justice Management Division, on (202) 616-5216.




                                                                                             Page 24 of 33 
     
                                                                                                                       Attachment 4
                                                                                                                       DOJ 1400.01
                                    PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

Attachment 1: Department of Justice-Sponsored Conference Request and Report

                                          Department of Justice-Sponsored Conference

                                                      Request and Report

    A RED cell indicates that your entry exceeds the DOJ meal threshold AND cannot be submitted unless within the meal threshold.

    A YELLOW cell indicates that your entry exceeds the DOJ threshold, and additional justification must be provided. 

    A GREY box indicates that no entry is required.


    JMD FINANCE STAFF USE ONLY:
    JMD Tracking Number
    Date Received




    COMPONENT USE ONLY:



    A. GENERAL CONFERENCE INFORMATION:
    1. Name of Requestor
    2. Component Name (Drop Down)
    3. Is this submission for a conference request or report? (Drop Down)
    4. JMD Tracking # (Report Only)
    5. If this is a Re-Submission of a previously disapproved conference,
    indicate original JMD Tracking Number.
    6. Official Title of the Conference (No Abbreviations)
    7. Is this a blanket request? (Y/N)(Drop Down)
    If "YES" Skip A9-13,A16 and Sections C,D,& E1, If "NO" Skip A8
    8. If this is a Blanket Request, indicate the number of occurrences this
    fiscal year, locations, and dates

                                                                                                                        Page 25 of 33 
 
                                                                                                            Attachment 4
                                                                                                            DOJ 1400.01
                                   PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

    9. Conference Start Date
    10. Conference End Date
    11. Location: Country (Drop Down)
    12. Location: State / Territory / Possession (Drop Down)
    13. Location: City
    14. Justification that conference is essential to accomplishing core
    mission
    15. Funding Appropriation Symbol
    16. Facility Name (Specific)
    17. Facility Type (Federal/Non-federal) (Drop Down)
    18. Cooperative Agreement (Y/N) (Drop Down)
    19. Reporting Period (Required when reporting actuals) (Drop
    Down)
                                                                            Conference REQUEST   Conference REPORT
                                                                                 Information         Information
    20. Number of DOJ Federal Attendees
    21. Number of Other Federal Attendees
    22. Number of Non-Federal Attendees
    23. Total Number of Attendees (Auto-populates)
    24. Total number of attendees whose travel expenses are paid for by
    DOJ
    25. Total Cost (Auto-populates from entries below)
    26. Predominately Internal Event held at a Non-federal Facility (Y/N)
    (Auto-populates)
    Competitive Contracting:
    27. Were Federal procurement regulations followed as appropriate?
    (Drop Down)
    28. Were all market research documents used in conference planning
    decisions retained? (Drop Down)                                                                                      
                                                                                                             Page 26 of 33 
 
                                                                                                                                                         Attachment 4
                                                                                                                                                         DOJ 1400.01
                                              PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

         

When REPORTING quarterly conferences, only complete the request information if JMD approved your request and you have a JMD tracking number
                                                   Conference REQUEST Information                                   Conference REPORT Information
                                                                                                                                                                      VARIANCE
                                                                                                                                                                   JUSTIFICATION
                                              ESTIMATED ESTIMATED ESTIMATED              % OF           ACTUAL    ACTUAL       ACTUAL         VARIANCE
B. TOTAL CONFERENCE COSTS:                                                                                                                                       (Provide justification if
                                                DIRECT   INDIRECT   TOTAL               TOTAL           DIRECT   INDIRECT      TOTAL         (Between Actual
                                                                                                                                                                variance is >$1,000 and
                                                 COST      COST      COST                COST            COST      COST         COST          and Estimate)
                                                                                                                                                                 >10% or exceeds cost
                                                                    (Auto-populates) (Auto-populates)                       (Auto-populates) (Auto-populates)
                                                                                                                                                                thresholds, as indicated
                                                                                                                                                                     by a white cell)
1. Conference Meeting Space (including
rooms for break-out sessions)
2. Audio-visual Equipment and Services
3. Printing and Distribution
4. Meals Provided by DOJ
    a. Breakfast
    b. Lunch
    c. Dinner
5. Refreshments Provided by DOJ
6. M&IE for Attendees
7. Lodging
8. Common Carrier Transportation
9. Local Transportation
10. Conference Planner - Logistical
11. Conference Planner - Programmatic
12. External Conference
13. Other Costs: ( Itemize Below)


14. Total Conference Cost: (Auto-populates)                                                                                                                                                   

         

         



                                                                                                                                                          Page 27 of 33 
         
                                                                                                                   Attachment 4
                                                                                                                   DOJ 1400.01
                                  PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

 

    C. MEALS & REFRESHMENTS THRESHOLD CALCULATOR
    CONFERENCE LOCATION:                                                             PER DIEM RATE
    1. Continental United States MI&E                          GSA Per-Diem Rates
    2. Hawaii, Alaska, US Territories & Possessions MI&E       DOD Per-Diem Rates
    3. Foreign Country MI&E                              State Department Per-Diem Rates

                                                                 NUMBER OF
                                                                               NUMBER OF     PER PERSON    TOTAL JMD
    D. MEALS                                                    TIMES MEALS
                                                                               ATTENDEES    THRESHOLD ($) THRESHOLD ($)
                                                                   SERVED
    1. Breakfast
    2. Lunch
    3. Dinner
    E. OTHER THRESHOLDS CALCULATOR
                                                                NUMBER OF      PER PERSON    TOTAL JMD
    COST CATEGORY:
                                                                ATTENDEES     THRESHOLD ($) THRESHOLD ($)
    1. Conference Space & Audio-visual Equipment and Services                                               TRUE
    2. Logistical Conference Planner
    3. Programmatic Conference Planner

    F. JUSTIFICATION IF SUBMITTING CONFERENCE REQUEST FORM WITH ESTIMATED COSTS OVER THRESHOLD
       (Complete if cells turn WHITE)
    1. Conference Space & Audio-visual Equipment and Services
    2. Refreshments
    3. Logistical Conference Planner
    4. Programmatic Conference Planner
    G. JUSTIFICATION REQUIRED FOR CONFERENCES WITH MEALS
    Government Provided Meals
    H. JUSTIFICATION FOR NON-FEDERAL FACILITY (Complete if cells turn WHITE):
    Justification for Using a Non-Federal Facility (Drop Down)                                                                     

                                                                                                                   Page 28 of 33
 
 
                                                                                                          Attachment 4
                                                                                                          DOJ 1400.01
                               PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

 

 

    I. FACILITIES CONSIDERED
                                                      FACILITY TYPE    TOTAL EST.                    REASON FOR USE
                           NAME                                                     SELECTED (Y/N)
                                                        ( Drop Down)     COST                          OR NON-USE




    J. ESTIMATED ATTENDEE INFORMATION
                                                                                     NUMBER OF
                ATTENDEE DUTY STATION                  ATTENDEE ORGANIZATION
                                                                                     ATTENDEES




    TOTAL - (Breakout must match entry on line A23)                                              0                        

 

 

                                                                                                           Page 29 of 33 
 
                                                                 Attachment 4
                                                                 DOJ 1400.01
             PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

Attachment 2: Component Certification


From:            Component Head or Principal Deputy

To:              AAG/A, DAG, or AG

Subject:         Conference Approval Requests

Attached are conference requests for (Insert Number) conferences planned by (Name of
Component) for the time period of (date of first conference to date of last conference). These are
being submitted for approval in compliance with the policy titled “Planning, Approving,
Attending and Reporting Conferences.” This certifies that these conferences are in accordance
with applicable policies, procedures, and sound financial management principles.

Provide written justification that the conferences are essential to accomplishing core mission
requirements.

      1.	 Conference name: 

          Dates: 

          Justification that conference is essential to accomplishing core mission: 




      2.	 Conference name:

          Dates: 

          Justification that conference is essential to accomplishing core mission: 





 

 

 

 




                                                                                        Page 30 of 33 
 
                                                                                          Attachment 4
                                                                                          DOJ 1400.01
                               PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

Attachment 3: Attendance at Conferences Held Outside the U.S.




                                             Department of Justice

                             Attendance at Conferences Held Outside the United States


    Component:
    Point of Contact:
    Telephone:
    Email:


    GENERAL CONFERENCE INFORMATION:
    Title of Conference

    Location: Country (Drop Down)

    Location: City

    Start Date:

    End Date:

    Number of Attendees:
 




                                                                                          Page 31 of 33 
 
                                                                                                                                                                  Attachment 4
                                                                                                                                                                  DOJ 1400.01
                                                 PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES

         Attachment 4: Attendance at Non-Department-Sponsored Conferences Report
                                                                              Department of Justice 

                                                           Attendance at Non-Department-Sponsored Conferences Report



Component:
Point of Contact:
Telephone:
Email:
Reporting Period:
Fiscal Year:

     1              2            3           4         5         6         7              8            9                10                11            12         13           14
                             Location:                                              # of Non-DOJ
                                                                        # of DOJ                                  Frequency of
               Location:      State /                                                 Attendees     Primary                           Travel and                          Total Cost ($)
 Title of                                 Location:   Start            Component                                 Conference (# of                  Registration
               Country      Territory /                       End Date                Funded by    Conference                       Transportation              Other ($)    (Auto-
Conference                                  City      Date              Employee                              times held per year)?                 Fees ($)
             (Drop Down)    Possession                                                   DOJ        Sponsor                              ($)                               populates)
                                                                        Attendees                                 (Drop Down)
                           (Drop Down)                                               Component




          




                                                                                                                                                                   Page 32 of 33 
          
                                                                 Attachment 4
                                                                   DOJ 1400.01
             PLANNING, APPROVING, ATTENDING AND REPORTING CONFERENCES
 
APPENDIX: ACTION LOG

All DOJ directives are reviewed, at minimum, every five years and revisions are made as necessary.
The action log records dates of approval, recertification, and cancellation, as well as major and minor
revisions to this directive. A brief summary of all revisions will be noted. In the event this directive
is cancelled, superseded, or supersedes another directive, that also will be noted in the action log.
 

         Action             Authorized by                Date                    Summary
Initial Approval        Director, Finance Staff       June 8, 2012




 




                                                                                           Page 33 of 33 
 
APPENDIX E

®         u.s. Department of Justice
                                                                                                        Attachment 2

                                                                                                          1400.02

                                                                                    .JANUARY 3U, 20 13

                    DOJ POLICY STATEMENT 

   RESTRICTED USE OF DEPARTMENT FUNDS TO PURCHAS E 

         COMMEMORATIVE ITEMS AND T RI NKETS 



P UR POSE: 	              Thi s Po li cy Statement updates Department of Ju sti ce (Department or 00.1)
                          policy on the restri cted use of Department fund s 10 pun,:!lase
                          commC'1llor'l tiv(' il f'tll<'; and Irinkf;'i S and rcquir<"!i th at all slich il~m s mils!. to
                          the cxtcnt possible. be m a nLl t~lcturcd. prod uced or asse mbled in the Un ited
                          Sta tes. ils terri lOrics or possessions. Thi s Policy Slatern!.!1H applies to 311
                          procureme nt mechuni sms llsed \0 obtuin com mclll Oral in! item s and
                          trinkets. including purchase card s and purchase orde rs.

SCOPE: 	                  This Poli cy Statemcilt applies [0 nil DOJ Compollmls regard less of 

                          fund ing source. 


ORIGINATOR: 	             Just ice Management Di visio n (.I MDl. Fi nance S lafr (FS)

CATEGORY: 	               (I) Administration. (II) Financi,, 1 jvianagemc ill

AUTI IO lllTY: 	          DOJ Or(kr 2 11 0.31 13: Sect ion 507 ofCommcrce . Justicc. Sc i.... nce. :llld
                          Related Agencies Appropriations Act. 20 12 (Tit le V. Di vision 11 Public
                          Law 112-55): OMB Circular A-8 7,

CANCE LLATION : 	HvlJ) FS l-'ill<1ll1:ial ~v laT1a g l'lllt'1l1 Pol ic ies (lnl! Proc\.~d \l!\:s Bulletin No. 11 ­
                          0-1. Re.\'/I"ic/iol/.\· 01/ lJsillS DI'/IlI}"/IIJeIIi oj".lmlice Fuud\" /(1 Purdlll\"('
                          Trinke/s.

01 ST I! I UUTlON: 	 This I'ol ic), S ',,'emen' is t1iSl,ib'Hed dwroni eall), 10 "II c""'pone"'s liSted
                     in the Scope Section as \Ie ll as postcd \0 lhe 00.1 Diro.:dives tvlan: lgcllh::1l 1
                     websi tc lill.p~: !lp( lrta l .d() i .l.!()\ dlll ' I',,!.!c:' 111 11111.:.:1:'12"



AI'I'I!OVEO BY: ~.""",,( ~ _
                          .\/~/iJ/d(/   J /orgoll
                           l1in.::ctor 

                          .lfvl!)  Fina nce Starr 

                                                                                                   Attachment 2
                                                                       DOl POLICY STA TEMENT 1400.02

                      RESTRICTED liSE OJ-' DEPARTMEN T FUNDS TO PURC HASE 

                            COMMEMURATIVE ITEMS AND TRINKETS 

                                                       ACTION LOG 


A ll DOJ di rc4.: tives arc reviewed. at min imum, every five years and rev isions are made as
lll"CCS~~lry. The nclion log r~co rd s dntcs o f approval. rece rli li cal ioll, a nd c;,ulCe ll alion. as well ,15
major and minor rcvi.sions to Ihis din:l.:t ivl!. A bricf sumnw ry of all rev isions wi ll be noted. In
the event Ihis d irective is cancelled. superseded. or supersedes onol her direct ive, lhal will "Isl) hI!
Ilo!t'd in   the   ,ICliu ll   log.



Action                                Authoriz~d by       Date                 Summar)'
Init ial Document                     Melinda Morgan      1110/20 13          Approva l of Po licy Statement




                                                             2

                                                                                                          Attachment 2
                                                                           00.1 POLICY S I";-\T\.JdENT I.tOO.O::!

                          RESTR[CTED USE OF DEPARTM EN T FUNDS TO PURe[ [A SF.
                                Cm [MEMORAT[VE [TEMS AND TR[ NK ETS
                                                TABL E OF CONTENTS

I.           POLICY .                                                                                    ................ ~
[I.          OVERS[G HT RESPONS[ B[ LlT[ES ..... .                                                 ......................... 6
[ [I.        QUEST[ONS tlND CO MMENTS .... .... .                                                                      ..... 6



                                                      DEFINITONS

C () 111111 e III 0 1";1 t jv (' 	   Co mmemora li vc it cm mean s a pl aq ue. ce rtilic,lte. piCHll'l:! (frall1ed or
It cm 	                              un framed). or other type o f item typically given to an indiv idual or
                                     group to <lcknowledgc parti cula r <ll.: hil!vcments or excep tiona l
                                     cOlltribut ion s.
Tl'inl,cl 	                          Trin ket means an it em (typically o f nomina l va lli":) sHch as ;1 11:11.
                                     mug. t-shi rl. or coin.
CO lIIlHlIlcn t 	                    Comp ollent means an ornce. Board. Di vision or Durl'<I1I orlh..:
                                     Dcpa n mcilt oLluslice as delined in::!8 C.F.R. Part 0 Subpart A.
                                     Paragraph 0.1.
Dl' P:I 1' 1fII en t 	               Dep artm ent means the Depart mellt of Justice



                                                           ACRONYMS

AAG/A                                Assistant Attorney General for Ad minis tration

DAG                                  Dl:puty Altorney Ciene ral

DO.!                                 De partment of Justice

FS                                   Finance Starr
J(\ 11l                              Justice Management Divis ion




                                                               ,,
                                                                                                                                  Attachment 2
                                                                                            DOl POLICY             S TAT[~ I[ NT       1400.1)2

                           RESTRI CTED US E OF DEPARTMENT FUNDS TO PURCH ASE 

                                  COMM EMORAT IVE ITEMS AN D TRINKETS 

I.        POLICY.

          The usc of Department funds 10 purch il s~ commemo....tive items andlo r trinkets for
          disirihul ill il to I.:l1lplnyn;s ur Ih~ public is prohibited except as provided lor in this policy.
          Note that trinkels 10 be used as message conveyors nnd si mii<ll' givt:nways (whether they
          afe c() n l~rem:e- r elalt'd or otherwise) are gcnt.::rall y impermiss ible unless spcdal a ppro\a l is
          granted pursuant 10 § I(C). Pending furlher guidance. the followi ng pol icies and limitations
          npply to the pcrmi ss ibk categuric::; of comIlH..'morali ve items and trinket purchases:

          A. Honoral")' Awanls.

                 It is permi ssiblt· tu give a n e mployee a commemorat ive item. stich as a frame d
                 certilicale or plaq ue. as an honorary aWJrd in conjullct ion with a cash award or on its
                 own FtlIpl o)'cC's must comply with the ir re!lpcct ivc componc nl ~' gu iddincs/policic:s
                 and doc lImcntthe purcha ses. reci pi en t(s) and thcir achievements. Honorary awards
                 may be given at the time o r an e mp l n y~c ' s retiremcn t or departure where the
                 employtc's service meri ts sllc h an award . Co mponents may also give honorary award
                 ite ms o fn omin<ll val ue (colllmemorative itl<!lllS or tri nket s, as approrriatc) to ind ividuals
                 out side of the Department who have provided a se rv ice, such as speaking at a
                 Deparlille nt- spo n ~ u red event .


                Fi scal pnldcll ce find good judgmellt mu st be exercised \vhcll purc hflsing items to be
                given <IS award~ Clnd typicu lly stich item s Illu st not cost more than $100 except when
                the)' are to be given in conjunc tion with a Departm ent or Co mponent- level awards
                ce remony, Component Head or Princ ipal Depllty I approval is required before a
                cOIllPonent Illay purchase any award item that costs more than $100 irit will not be
                given during a Department or Component-leve l awards ceremony. To the extent thnt
                pun.:hascs o f such honorary award items are permissi blc. they must compl y with the
                req ui remen ts in *1(0).

          n.     Ihprcsc ntati on Fun d Purchases.

                Tht' pmchasc or cUllllllcmornti\'e items find trinkets to promotc goodwill to wards the
                Dcpartllll.:llt and its l11iss itlll S is permi ss ible when Representati on fund s are properl y
                lIsed plIrSliunt 10 DO] Ord er 2 110.3113. Erpmdill/l'es of R('pre.\-enr(//iol1 Fllilds. T\) the
                ext('llt thai slich plln:lmses a rc pe rmi ssible. they must compl y wi th the requirement s in
                 ~ I(D )




, In   llh.' ( <l SI.:   n(lilL' FI.'d er:tllIlIrl.';lu 01' JIl\'e~li~;lti(\lIth..: J\ ssll!.:ialo.: [)Cl'lll~ is autho rized 10
"PI)l'O\ . : '; Lld, plIr(h: lscs. ]-'\11'111 0.: 1'. if 1111.:1'1: is a :o;i tu,lIiu l1 in \\,h il.· h a l'Olnp(1I1(' IH dlh•.':, IHlt ha\\.' a
Prill..:i p.t l DL' pllt~ ur all il1di\'idu:11 \\ lw Im<; hecn dL'sig l1ah.:d ;IS thl.' 1\(ling Prino.:ipal Deptll~. thL'
A f\Ci ,'.'\ 1ll:l~ dL'legalt: :11'1'1'1)\;11 a llt Jwril~ ' ttl       (I ~': ll i( lr lli'lit:ia l illlht: (Ollljll.1l1t:111 \l l1lillhe ti lllt' at

\\l1i .,: 11 ;ll' r i ll (ipil ll k p ll l ~ llr ;\( ti ng Pr ill l'ipal ! h:p llI~ is iHll1ll.'d.
•
                                                                                                             Attachment 2
                                                                                 DOJ 	POIKY ST!I         rE~IE N T    1400.Q2

                        RESTRI CTE D USE OF Dli PflRTM ENT FUNDS TO PURC HASE 

                               CO !lHvIE ~· I ORATIVE ITEMS AN D TR INK ETS 


            C. P"rchll ses P'm""""o,, C o",pc ll ;n g              ~'r; ss ;o"   Need ",;,h AA G/A Appruval.

                  As a gc ncralllHltlcr. the above t wo calegori...:s (honorary awards and Reprt!sclllalion
                  Fund it ems) an: the only permi ssible j usliji c:ll iUIlS for the purchnse of cotllllK'morat i\ I.'
                  items and/or trinke ts. If a component has II compel lin g m iss io n 1lt'L'd 10 purchase
                  cOlllmemorative itl.!lllS and/or trinkets tor any l)lllC r reaso n i1 m ust submit a rcq ucsl10
                  [he DirecloL .I MD I:S prior [0 Illaking an y stich purchases. No te Ihat stich a [\."qucS I is
                  rcquirr.:d eve ll if a component b,'ls specifi c sta tutory authorit), [0 pun:hasc trinkl' \S for
                  oliler purposes. Each rcquest Ill llst co tHai n the justi ficalion (comped Ii ng Jll iss ioll need ):
                  description. quanti ty. and cost of the items: and a desc riptioll o r Ihe indi vidu al s to
                  whom the items w ill be di str ibut ed. J\ component must not proceed \\'it h any such
                  plll'chases unless it rece ives approval froillthc AA G / A or his des ignee. To the e." tent
                  that tht.: purchase or such ite1l1 s is deemed to be permi ssible. the comp"llentlllllsi
                  comp ly with the requ in:lllcllt s in § I(O ).

            I).   A lll cr ic:III-JVla d c Rcq uirl'lllc nt.

                  COIlHll(,1ll0rati\'c itell1 and trinket purchases must comply wit h a provision enacted as
                  parI of the Department ' s appropri,lIions act that such item s be "A111o.::rican-llladc." .1s
                  follows:

                         To the ex ten t pmclicable. wi lh reSpCL'lIO i.llItho rizt:d purchases or prtJmotiona l
                         items. fund s m;]dc ava ilable by thi s Act 511;] 11 he lIsed to pu n.:hasl· items tlmt art'
                         lHan u 1~Il:turcd. produced, or asse11l hied in the U11 i led States. i IS tel'ri toril'S o r
                                         2
                         posst'ssion s.

                  Out o f an abundance of cau tio n, thi s policy applies that prov ision to al l purdmsl"s of
                  cOlllllle morati ve itt'm s and trinkel s. ACl:l.)I'(lingly. to mpo ncllts purchasi ng
                  co mmem ora ti ve item s or lrinkd s Illu st li l'st cons ide r \\hl:lh~r tlll' r..: arc Alll.:ric,Ill -llwdc
                  options tor slIch purchases . COlllponc!1I s I llll~t buy Al1lcric:IIHlladL" iteills unless:

                        I . 	 America n-made item s arc unavai labk'.
                        2. 	 Tilt: cost or American-Illade iteills is unreasonabl e. or
                        3. 	 There is anothe r compe ll ing reaso ll 10 purchase items mad e out side the t lnitcd
                              Stales.




     l Sect io n 507 ofCmnmL"H.'t'. Justice. SdL:llce.•md Related I\genc ics Apl)I'opriutio ns Ac t. 2012
     (Ti lk V. Di\'ision B. Public Law 112-55). Th..:: prm isio ll rde!"s to the ddi ni tioll \) f""prom ot iomil
     ilL" ms" in Of/i cc o f Ma nagc1llcnt and Bud get ClfcLllll r A- 87. ,\Uachml' n! B. Itt'1ll (1 )( 1)( 3 ). \\hich
     re stric ts plirehasL"s of "pro mo t i~"l l wl it e m s ami 1llt'lllor;lbiIia. iIll' Iud i ng mode Is. gi i't s. and
     so uvell irs .


                                                                  5
                                                                                                  Attachment 2
                                                                     DOJ POLI CY STATEMENT 1< 00.02 


                 RE STRI CTED USE OF DEPART MENT FUNDS TO PURCHASE 

                         COM MEMORAT IVE ITEMS A ND TRINKETS 

           I r a compo nen t chooses 1101 to buy Aml.:rican-Ill<ldc ile ms. sw.: h a dCl:i sion IllU ~1 h~
           dm:u llll!lllcd in writing and retai ned wil h Ihe purc hasing UUI:UIllCl1lat ioll .

       E. Co mpon e nt Poli cies.

           Components nrc permitted to estab lish their own policies on lIsing Dcpanmcn t funds \0
           purchase co mm ~ ll1 onJt i \'e items and trinkets. Such policies must not conll ie! wit h Ihis
           Policy Statement, but Illay be more restri cti ve . at the discretion of the componen t.
           Component policies should ind ude interna l controls fo r sllch ex pendi tures. such as
           pro viding fo r wriHen approval of such ex pe nd it ures by designated oflici als and pe riodic
           reporlin g of ex pendi lures in m:cordnllcc w ith Pari II of lh is Po licy St;JtcmcnL

II .   OV[RSIG IIT IlESI'ONSIUILITIES.

        r he review of com memorat ive item and tri nket purchases is required as part of the
       Depart illcill 's ex ist ing iIHernnl control asSess ment conducted lInd~r Ofticc.: and
       Millwgc.:lllcn l and Budget Circular A- 123 , MlIIUlg,t.!llU! 1If 's Rf!.~JJ(J/lSibility jiw Infernal
       ( ·o ll/rut. Eal.: h compo nent is rcqllircd to include testi ng of cOlll lllcmorative item and trinket
       purchases in its A- 113 revi ew. 10 ensure the rest ri c ti ons on lIsing Deparlllll!l1 l fund s ar~
       follo wed . S pec ili c testing proc cdllr~s will be prov ided hy the .IM D Intern al Rev iew and
       Evaluat io n O ffi ce as part o f the Sensitivc Payme nt test pl an.

III.   QUEST IONS ANI> COMMENTS.

       II" you ha ve a ny questio ns o r comme nts about th is policy please contact the J MD FS
       Qua lit)' Conlrol and Compl iance Group at
       QCCG.FINANCIA I .. MANAGEMEN T.POLI C Y.Q UESTION SItIlU SDOJ .GUV .
